<html>
<title> - HURRICANE KATRINA: THE HOMELAND SECURITY DEPARTMENT'S PREPARATION AND RESPONSE</title>
<body><pre>[Senate Hearing 109-848]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-848
 
 HURRICANE KATRINA: THE HOMELAND SECURITY DEPARTMENT'S PREPARATION AND 
                                RESPONSE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 15, 2006

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


                    U.S. GOVERNMENT PRINTING OFFICE
27-032                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
                   David T. Flanagan, General Counsel
                       Jonathan T. Nass, Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                Robert F. Muse, Minority General Counsel
                  Mary Beth Schultz, Minority Counsel
                   Beth M. Grossman, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     3
    Senator Warner...............................................    17
    Senator Dayton...............................................    21
    Senator Coleman..............................................    25
    Senator Pryor................................................    29
    Senator Bennett..............................................    33
    Senator Levin................................................    35
    Senator Chafee...............................................    39
    Senator Akaka................................................    40
    Senator Lautenberg...........................................    43
Prepared statement:
    Senator Voinovich............................................    49

                                WITNESS
                      Wednesday, February 15, 2006

Hon. Michael Chertoff, Secretary, U.S. Department of Homeland 
  Security:
    Testimony....................................................     4
    Prepared statement...........................................    50
    Responses to questions submitted for the Record..............    58

                                APPENDIX

Information for the Record submitted by Senator Levin............   162
Exhibit 14 referenced by Senator Coleman.........................   172
Exhibit A referenced by Senator Lautenberg.......................   173


                    HURRICANE KATRINA: THE HOMELAND
                   SECURITY DEPARTMENT'S PREPARATION
                              AND RESPONSE

                              ----------                              


                      WEDNESDAY, FEBRUARY 15, 2006

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 11:25 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Coleman, Chafee, Bennett, 
Warner, Lieberman, Levin, Akaka, Carper, Dayton, Lautenberg, 
and Pryor.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order.
    Today marks our 20th hearing on Hurricane Katrina. As this 
inquiry nears its end, we turn our focus today to that 
component of the Federal Government that bears ultimate 
responsibility for a quick and effective response to the 
disaster, the Department of Homeland Security. Our witness is 
Secretary Michael Chertoff, who today marks his first 
anniversary as head of DHS.
    According to its mission statement, one of the fundamental 
responsibilities of the Department of Homeland Security is 
``preparing for natural disasters and terrorist attacks through 
planning, technology, and coordinated efforts. In the event of 
a natural or man-made disaster, DHS will be the first Federal 
Department to utilize a full range of State, local, and private 
partnerships to alleviate the effects of a potential 
disaster.''
    Clearly, that mission was not accomplished. The Federal 
Department that was supposed to lead, direct, and coordinate 
the Federal response to Katrina was, time and again, late, 
uncertain, and ineffective. A central purpose of this hearing 
is to learn why, in a crisis that called for decisive and 
speedy action, DHS was plagued by indecision and delay. If our 
government failed so utterly in preparing for and responding to 
a disaster that had been long predicted and was imminent for 
days, we must wonder how much more profound the failure would 
be if a disaster were to take us completely by surprise, such 
as a terrorist attack.
    The delays in DHS's response are both alarming and 
unacceptable. The chasm that Hurricane Katrina exposed between 
DHS and FEMA, one of its most important components, presented a 
significant impediment to a coordinated, swift Federal 
response. Concerns about this disconnect were expressed long 
before Hurricane Katrina, and our investigation has revealed 
disturbing conflicts about roles, resources, and 
responsibilities.
    But the problem within DHS goes beyond its relationship 
with FEMA. The Department's overall lack of preparedness for 
this catastrophe prevented both decisive action before the 
storm hit and an effective response in its immediate aftermath. 
After landfall, the Department far too often appeared to be 
frozen with indecision and nearly paralyzed by ineffective 
communications. Key decisions were either delayed or based on 
faulty information. As a result, the suffering of Katrina's 
victims was worsened and prolonged.
    This lack of preparedness is evident throughout the 
response to Hurricane Katrina. On August 30, the day after 
Katrina made landfall, Secretary Chertoff named then-FEMA 
Director Michael Brown as the Principal Federal Official for 
the response effort. He did so despite Mr. Brown's hostility to 
the very concept of a Principal Federal Official and his 
disdain for the National Response Plan.
    In addition to questioning the appointment of Mr. Brown, I 
wonder why a PFO was not designated before Katrina made 
landfall, when it was already evident that we were facing a 
looming disaster that would require a direct link between 
Federal operations on the ground and DHS headquarters. The 
effect of this delay was much like having the general show up 
after the battle had already begun.
    From that evident lack of readiness come a great many 
issues that we will explore today. Among them are, why was 
situational awareness at DHS so severely lacking throughout the 
Katrina response? While people throughout the Nation merely had 
to turn on their television sets to learn of the levee failures 
and the dire need for food and water at the Superdome and the 
convention center, DHS was consistently behind the curve. The 
delays in response to these crises were the direct result of 
poor communications.
    Why weren't the tremendous resources of the Department of 
Defense deployed sooner? The delay in bringing these assets to 
bear not only prolonged the suffering of the victims, but also 
made the work of first responders even more difficult and more 
dangerous.
    The failure to resolve obvious issues beforehand led to 
numerous other problems, from the poor information flow between 
DHS and the White House, to the difficulties DHS encountered in 
assigning missions to other Federal agencies, to the 
unnecessary disputes with overwhelmed State and local 
officials.
    The examples are legion: The failure to promptly order the 
buses Michael Brown promised; the failure to deliver essential 
commodities for victims at the convention center until 2 days 
after Mr. Brown apparently became aware of their plight; the 
failure to quickly process requests for vital commodities 
throughout Louisiana and Mississippi and to track their 
delivery; the failure to field more search and rescue and 
emergency medical teams at the onset of the flooding; the 
failure to respond rapidly to a devastated telecommunications 
system; the failure to appoint a single senior law enforcement 
officer as soon as the need became apparent; the failure to 
invoke the Catastrophic Incident Annex to the National Response 
Plan, which would have permitted the Department to be more 
proactive.
    The list of critical tasks done either late or not at all 
is staggering. And perhaps most crucial to understanding the 
failures of Katrina is the fundamental question of whether FEMA 
had adequate leadership and resources to respond to a disaster 
of this magnitude.
    As I said at our hearing last Friday, FEMA's response to 
Katrina has to be judged a failure, and as a consequence, the 
response of DHS must be judged a failure, as well, despite the 
outstanding performance of the Coast Guard and of the 
individual DHS employees.
    As the third anniversary of the Department of Homeland 
Security approaches, it is past time for the Department to 
carry out its vital mission and meet its responsibilities to 
the American people.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thank you, Madam Chairman. Good morning, 
Mr. Secretary.
    The many hearings that we have held, the witnesses that we 
have interviewed, and the documents that we have reviewed have 
brought us to today's important hearing with our sole witness, 
the Secretary of the Department of Homeland Security, Michael 
Chertoff. This Committee's Katrina investigation is moving now 
toward conclusion, reckoning, and I hope, reform.
    According to the law, it is the responsibility of the 
Secretary of Homeland Security to lead the government's 
preparations for and response to disaster, natural or 
terrorist. The Secretary is the national official most directly 
responsible for protecting the safety of the American people 
here at home in times of danger. That is what the law creating 
the Department of Homeland Security says, what Homeland 
Security Presidential Directive No. 5 mandates, and what the 
National Response Plan requires, and that is why today it is 
our responsibility to ask Secretary Chertoff some tough, 
direct, and critical questions based on the jarring lack of 
preparation for Katrina that our investigation has found.
    Among the most important of these questions are, Mr. 
Secretary, why did you do so little in the months after you 
became Secretary to make sure that the agencies of our 
government, particularly your own, were ready to carry out 
their responsibilities to protect the American people under the 
National Response Plan and President Bush's Homeland Security 
Presidential Directive No. 5?
    How could you have left us with so many of those agencies 
so unprepared that when Katrina struck, too many of them ran 
around like Keystone Kops, uncertain about what they were 
supposed to do or unable to do it?
    Why, in the days immediately before Katrina made landfall, 
as the National Hurricane Service and agencies within your own 
Department warned over and over that this was the long-feared 
hurricane that would break the levees and drown the City of New 
Orleans, did you not mobilize more of the resources of the 
Federal Government to protect this great American city and its 
people?
    With all the information coming into your Department's 
operations center on the day that Katrina struck New Orleans, 
that the city was flooding and people were trapped or drowning, 
how could you, as Secretary of Homeland Security, go to bed 
that night not knowing what was happening in New Orleans and 
get up the next morning and proceed not to New Orleans to 
oversee the response but to Atlanta for a conference?
    Respectfully, those are some of the hard and perplexing 
questions that have emerged from this Committee's investigation 
that you, Mr. Secretary, and we have a responsibility to answer 
so that the next time disaster strikes, as it surely will, the 
Federal Government is totally ready to protect our country and 
our people. Thank you.
    Chairman Collins. Thank you, Senator Lieberman.
    Our sole witness today is the Secretary of Homeland 
Security, Michael Chertoff. He was confirmed unanimously by the 
U.S. Senate exactly 1 year ago. I thank him for appearing here 
today.
    Secretary Chertoff, we are swearing in all witnesses for 
this investigation so I would ask that you stand. Do you swear 
that the testimony you are about to give is the truth, the 
whole truth, and nothing but the truth, so help you, God?
    Secretary Chertoff. I do.
    Chairman Collins. Thank you. Please proceed with your 
statement.

    TESTIMONY OF HON. MICHAEL CHERTOFF,\1\ SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Chertoff. Thank you, Chairman Collins, and thank 
you, Senator Lieberman. I ask before I give a shortened version 
of what I submitted for the record that the full statement I 
prepared be accepted for the record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Secretary Chertoff appears in the 
Appendix on page 50.
---------------------------------------------------------------------------
    Chairman Collins. Without objection.
    Secretary Chertoff. I appreciate the opportunity to be 
here. I have followed the hearings to a reasonable degree of 
detail and am very interested in the perspective of this 
Committee on one of the most difficult and traumatic 
experiences of my life, which was the process of anticipating 
and managing and dealing with the consequences of Katrina, 
consequences which still continue to this day.
    You can't escape the fact when you talk about Katrina that 
this was a storm of unprecedented magnitude, not because it was 
a surprise, because I don't think it was a surprise that a 
storm like this could happen, but because in terms of prior 
experience, at least as far as I know, nobody in living memory 
recalls a set of challenges as difficult as those presented by 
this hurricane.
    And without dwelling on it, just a few things that bear 
keeping in mind. Ninety-thousand square miles were impacted, 
that is an area larger than Great Britain and three-and-a-half 
times the area inundated by the great Mississippi flood of 
1927. FEMA estimates that 300,000 homes were destroyed, six 
times as many as the Midwest flood of 1993 and 11 times as many 
as Hurricane Andrew. A hundred-and-eighteen million cubic yards 
of debris was produced, more than double the amount produced by 
four Florida hurricanes of last year, or 2 years ago, and six 
times what was produced by Andrew. So this was an unprecedented 
disaster.
    And while I am here, I suspect, mainly to talk about things 
that failed, I do think we have to acknowledge things that 
succeeded. The U.S. Coast Guard rescued 33,000 people, six 
times the number rescued nationwide in all of 2004. FEMA 
rescued more than 6,500 and deployed all 28 urban search and 
rescue teams for the first time. Forty-thousand rescued by two 
agencies, which is seven times the number of people rescued in 
the four hurricanes in Florida in 2004. And in the first 6 
days, the Federal Government distributed 28 million pounds of 
ice, 8.5 million meals, 4 million gallons of water, which 
exceeded the combined total for the entire rescue operation in 
Hurricane Andrew.
    Now, as you pointed out, Chairman Collins, I am responsible 
for the Department of Homeland Security. I am accountable and 
accept responsibility for the performance of the entire 
Department, the bad and the good. I also have the 
responsibility to fix what is wrong.
    If I can digress and step out of my official role for a 
minute, I can tell you on a personal basis, probably the worst 
element of this catastrophe personally is not criticism I have 
received or criticism the Department has received by committees 
and commentators, but the vision of people who did have their 
suffering unnecessarily prolonged because this Department did 
not perform as well as the vision of its performance suggested 
it should have been able to do. And I say that without 
suggesting I was naive about the challenges I assumed when I 
was confirmed a year ago. In the 6 months that I was in office 
before Katrina hit, I knew, and I said to this Committee, there 
were many things to be done.
    But I do want to talk about a couple of general 
observations before I answer the specific questions about what 
happened in Hurricane Katrina and about what we want to do 
going forward.
    First of all, I have to say that the idea that this 
Department and this Administration and the President were 
somehow detached from Katrina is simply not correct, in my view 
and in my recollection of what happened. We were acutely aware 
of Katrina and the risk it posed. We followed this hurricane 
from the time it started to meander up towards the coast of 
Florida, as it crossed over the Southern tip of Florida and got 
into the Gulf. We knew, and certainly FEMA most of all because 
if there is anything that FEMA is expert in it is hurricanes, 
that there was at least a potential as the week before 
hurricane landfall came that this would hit New Orleans with 
potentially catastrophic consequences.
    On the weekend before Katrina made landfall, that is August 
27 and 28, the President took an unprecedented step, something 
that has only been done to my knowledge once before, which is 
to declare an emergency for Louisiana and Mississippi in 
advance of a hurricane landfall, and I want to emphasize that 
was an extraordinary event because the Stafford Act, which is 
the Federal law that authorizes the Federal Government to come 
in to act in time of disaster, is what I would say is the kind 
of ultimate tool, the ultimate source of authority for the 
Federal Government. And for the second time in memory, the 
President took the step of invoking it before a hurricane.
    This also, by the way, according to the literal text of the 
National Response Plan, automatically designated this and 
created this as an incident of national significance. So on the 
weekend before hurricane landfall, as I recollect it, and I am 
going to try very hard to separate what I know now from what I 
knew then because I certainly know a lot more now than I knew 
back then, but on that weekend, I had the assurance that we had 
opened the legal and strategic floodgates to allow as much 
resource and as many assets to be pushed into the theater of 
engagement as possible.
    There was a second major question I confronted in that 
weekend. Were our incident commanders exercising their 
authority properly? Were they using the tools? Were they 
adequately considering the things they had to consider as the 
operational commanders? And I want to make it clear that 
although Michael Brown has got a lot of attention, Michael 
Brown did not function alone at FEMA. In that weekend, Federal 
Coordinating Officers (FCOs), who are statutorily designated 
officers as part of the Stafford Act, were sent down to 
Mississippi and Louisiana and other places, as well, to be on-
the-ground incident managers for FEMA and for the Department of 
Homeland Security.
    You saw Bill Lokey here. I think he was a witness. I don't 
know if Bill Carwile testified. These are two very experienced 
men. They were supported by the very experienced men and women 
who are in the regional headquarters that support these States, 
and they were supported by the very experienced men and women 
who sat around the table at the National Response Coordinating 
Center at FEMA in Washington who are the principal backstop, 
the principal pool of talent that supports operational activity 
in the field in the time of a hurricane, and I would venture to 
say there were dozens, maybe over 100 years of experience fully 
engaged that weekend.
    I came in on Sunday and I sat in a video teleconference, 
and that conference had at least 50 people who were either 
sitting in that room at FEMA or were sitting at DHS or were 
sitting in regional centers or were sitting on the ground in 
the Emergency Operations Centers in the States. And the purpose 
of that videoconference is to go around and make sure everybody 
has considered and talked about all of the measures that must 
be in place to anticipate what is going to happen when this 
hurricane hits.
    If there is nothing else that FEMA is an expert in, it is 
hurricanes. This is the challenge--not on this scale, but this 
is the challenge they have worked at, they have planned for, 
and they have considered the core of their mission since they 
were created.
    And as I sat there, I heard a round robin go around, 
hearing from, first of all, each of the emergency managers from 
the States, the National Guard representative from the States 
talking very specifically about their assessment of what needed 
to be prepositioned, what was on the way, and expressing very 
clearly their satisfaction with the state of affairs and their 
belief they had prepositioned or en route what they needed to 
respond. I then heard the regional officers go through the same 
litany and again say they felt that everything was en route and 
positioned the way it needed to be. I then heard the people 
sitting around the table in headquarters talk about things like 
transportation, urban search and rescue, logistics, and medical 
teams.
    At the end of that VTC--and I also heard Michael Brown say, 
and I think he was quite accurate about this, we need to push 
everything we can, jam the system, push the envelope, get 
everything down there you need to get.
    And then at the end of that, and I was conscious of the 
fact that, although I am the Secretary, I am not a hurricane 
operator, I do not have 30 years of experience managing 
hurricanes, and I do not see myself in a position to contradict 
or second-guess operational decisions by hundreds of years of 
expertise, but I did want to get to the core issue, so I asked 
two questions, and these are in the transcript that is 
contained of that Sunday VTC, which I know you have.
    First, I said, is there anything in this Department that is 
not fully available to you that you need that you don't have 
that I need to get to you--I am paraphrasing--because it is all 
available, and Michael Brown said, I am in touch with the 
components, the Coast Guard--I specifically mentioned the Coast 
Guard. Everybody has been through this drill before. We are all 
engaged and working.
    And then because I knew that the Department of Defense had 
unique resources and talents, I asked a second question, have 
you reached out to DOD, the Department of Defense? Are their 
assets ready? Do you have what you need from them? Are you 
ready to go with them? And in the presence of the Defense 
Department representatives sitting around the table, who I 
could see on the screen, Michael Brown said, yes, we are here 
with the Defense Department. We are engaged and we are working, 
getting all the things that we need. That was what I needed to 
know to believe that we were--that the experts saw us as ready 
to move and be prepositioned.
    Now, there are many lapses that occurred, and I have 
certainly spent a lot of time personally, probably since last 
fall, thinking about things that might have been done 
differently. But I do want to talk about things that can be 
done differently in the future very briefly.
    First, I want to make it clear to the public, at least, 
that in the first few months after I arrived, after February, I 
knew that there were a lot of challenges in this Department. In 
fact, I am sure in my confirmation hearing, I heard predictions 
that I was getting into a department that was brand new. 
Senator Bennett, I think, pointed out that the Department of 
Transportation, it took them 5 years to get ready, and by the 
way, this is no criticism of Governor Ridge, who with some very 
able assistance had to stand up a department from scratch. But 
I think it was a candid recognition that a new department, 
barely 2 years old, had a lot of work to do in terms of 
integration, in terms of building capabilities, and in terms of 
building a common culture.
    And after I did a review, I came back and I believe I 
testified in this Committee, I certainly testified elsewhere, 
and I said publicly in July, scarcely a month before Katrina, I 
said that we were not where we needed to be in terms of 
preparedness, and I said that because having gone through the 
exercise of TOP-OFF and having looked and sat with the people 
in the Department, I knew we had a lot of work to do, and I 
started to propose some specific things to get ourselves turned 
around, including getting FEMA to focus on its core mission and 
making sure we unified all of our preparedness and our planning 
and our grants and our training in a single focal point.
    In accordance with the law and, of course, the 
appropriations process, we targeted October 1 to reorganize, 
get ourselves better situated, and then, of course, move 
forward to start what is not a brief and, in fact, is a very 
substantial process of getting ourselves prepared to the level 
we need to be. Unfortunately, Katrina didn't wait until October 
1.
    So we come here now with a major set of challenges, and I 
know this Committee is looking very carefully at the issue of 
reform. I know that the Committee quite rightly wants us to 
withhold making significant decisions about major reforms until 
the Committee has had an opportunity to put its findings out, 
and I agree that is appropriate. As a consequence, when I spoke 
on Monday about some of the things we are doing, I deliberately 
said I am not going to talk about more systemic reforms, which 
the President also is going to hear some recommendations about.
    But I do know there are some things we have to get done by 
June 1 because hurricane season is not going to wait again. 
First of all, we have to have a unified incident command. 
Putting aside issues of personality, which at least emerged for 
me last Friday when another witness testified, it is clear that 
the whole idea that we need to pass information from a FEMA 
operations center to a DHS operations center as if across a 
gulf or a chasm makes no sense at all. We have to complete the 
process of building out our operations capability. We have got 
to have real-time, simultaneous visibility into operations in 
both places.
    Second, it is completely correct to say that our logistics 
capability in Katrina was woefully inadequate. I was astonished 
to see that we didn't have the capability that most 21st 
Century corporations have to track the flow of goods and 
services. I was more surprised to learn that the reason for 
that is because we don't contract for that directly, we do it 
through another agency, and that other agency apparently didn't 
insert a requirement for such visibility in the contract. We 
are going to correct that.
    Our claims management was also something that fell short, 
and again, to put it in context, we had never had the volume of 
people whose claims needed to be dealt with. I think 770,000 
people were displaced, approximately, many more than FEMA had 
ever dealt with before, and I think, frankly, FEMA was strained 
in past emergencies. So we are talking now about expanding 
capability to deal with telephone registration, expanded 
technological capacities, and a dedicated core of people who 
are specialists to go out into the field to reach people when 
they are widely dispersed as opposed to making them touch us.
    Financial management--we are already implementing a plan to 
bring better financial management tools into the Department.
    Debris removal--I am aware of the fact that we still have a 
lot of debris on the ground. It is not moving quickly enough. I 
got a lot of complaints over the last few months about the Army 
Corps of Engineers in terms of being expensive and in terms of 
being not necessarily inefficient, and, of course, all they do 
is turn around and subcontract out to others. That didn't make 
a lot of sense to me. We have already taken the position that 
we are going to try to equalize the incentive structure to 
encourage local mayors and local officials to hire their own 
local debris removers as opposed to going through the Army 
Corps. We are going to work again this year going forward to 
try to identify some contractors who can be available.
    And finally, communications. We had not just a problem of 
interoperability, we had a problem of operability. We are 
already building teams in FEMA and DHS to get into the field 
with better communications equipment and the ability to stream 
back directly to where we are in Washington. We are acquiring 
more satellite equipment and more communications equipment to 
be able to deploy to our state and local emergency operators so 
they can communicate with us.
    One thing is clearly true. The foundation of any ability to 
make significant and intelligent decisions in a crisis is 
communication, and we have to get the equipment, and then the 
second thing is we have to have the culture, a culture where 
people view themselves as part of an integrated team.
    So with that, I want to thank the Committee for the 
opportunity to testify. I anticipate and welcome tough 
questions. I am going to take responsibility for what the 
Department did, but I am also going to take responsibility for 
identifying solutions for the problems that we saw in Katrina.
    Chairman Collins. Thank you for your statement.
    Rev. Yearwood. Senator, but mothers and children are being 
thrown in the street. Mothers and children are being thrown in 
the street while trailers sit in the ground.
    Chairman Collins. Sir, this is not a public hearing today.
    Rev. Yearwood. This is not American. They are being 
evicted. They are being thrown in the street. It is hard.
    Chairman Collins. I understand that, and the Committee is 
working on that issue. We have been to the area twice. I invite 
you to sit quietly and allow us to proceed with the hearing. 
Thank you. I would also invite you to talk further with our 
staffs if you would like to, sir, and see if we can help any 
specific concern.
    Senator Lieberman. I want to repeat that the Chairman has 
invited you to sit at the hearing if you would like, sir, so 
long as you remain quiet.
    Chairman Collins. Secretary Chertoff, I remain perplexed by 
your decision to appoint Michael Brown as the principal contact 
for the Department when he had such poor relationships with you 
and with other senior officials. Assistant Secretary Stephan 
has told us that Michael Brown did not fully understand a lot 
of the responsibilities assigned under the National Response 
Plan, that he opposed the entire concept of having a Principal 
Federal Official, a PFO.
    I am trying to understand why, in view of Mr. Brown's open 
disdain for the Department, his disagreement with the concept 
of the PFO, and his criticisms of the National Response Plan, 
you would want to have that person as the Principal Federal 
Official and how you would think that it would improve the 
ability of the Department to respond to Katrina to have an 
individual who was disdainful of the whole process.
    Secretary Chertoff. Chairman Collins, when I answer that 
question, I have to put out of my mind the events of last 
Friday because I have to tell you it was astonishing to me to 
hear the testimony of Mr. Brown concerning his decision, 
apparently, by his own admission, as the PFO on the ground to 
deliberately bypass the Department and not to deal with us. I 
had attributed the problems I had sometimes engaging with Mr. 
Brown to just the overwhelming pressures of the situation 
itself.
    I have to put myself back in the frame of mind of what I 
knew at the time in August. It didn't surprise me to learn that 
Michael Brown opposed the NRP. I think that there were many 
people who were not necessarily satisfied or happy with 
Congress' decision to create this Department, and my experience 
in government, I have spent well over a decade in government, 
and I saw when we tried to fuse intelligence and tried to get 
the CIA and the FBI to talk together, there was a lot of 
grumbling and there were a lot of people who bitterly opposed 
those things. But one thing I saw, at least until this 
hurricane, was the fact that these people put their policy 
differences aside and acted professionally when matters of life 
and death were at stake.
    I met with Michael Brown. I heard his vision of what he 
wanted to do with FEMA. I heard him address the issue of 
preparedness and the lack of preparedness. I actually agreed 
with some of his suggestions. I agreed we ought to align 
training and grants and preparedness in one place.
    I did disagree with him in one respect. I did not believe 
that the solution was to put all of the grants and all of the 
grant making and training under his authority as the head of 
FEMA and as the Under Secretary in charge. I wasn't going to 
give him more authority.
    And after I decided that I was going to propose the 
structure that I ultimately recommended to Congress in July, 
the Deputy Secretary and I talked to Mr. Brown, and we said to 
him, look, we know you are disappointed with the result of 
this. If you are going to have a problem functioning as the 
head of FEMA with this, let us know. It is perfectly creditable 
to say, I can't go along with this. I want to leave. If you are 
going to stay, though, we need to have your full commitment. He 
told us he felt he had gotten a fair hearing and would give us 
his full commitment.
    I remember in August, before Katrina, for the first time 
ever, we brought emergency managers and homeland security 
advisors into the same room in a summit here in Washington 
precisely to talk about their needs to be sure we were an all-
hazards agency, and we talked about the need to be integrated 
and partnered on natural hazards as well as other hazards, and 
Michael Brown was there and he endorsed it.
    So, yes, if I had known then what I know now about Mr. 
Brown's agenda, I would have done something differently.
    Chairman Collins. I guess, as I look back at all the 
decisions that you had to make, I can't help but conclude that 
was one of your biggest mistakes. I have an e-mail in which 
your staff is complaining to Michael Brown's staff that you 
have lost all contact with Michael Brown for 2 days, and this 
is a critical 2 days. It is the 2 days after landfall. Michael 
Brown testified before this Committee that he found your phone 
calls to be annoying, disruptive. It is just astonishing to me 
that a person who seemed to not believe in the cause and a 
person on whom you were relying for active, complete, and 
prompt communication, which you didn't get, was placed in 
charge.
    But I want to go on to another issue. I know from talking 
with you during the week of August 28 that later in the week, 
you were in Louisiana. You were working night and day, around 
the clock, to try to remedy the problems and improve the 
response. But earlier in the week, your actions are puzzling to 
me because, despite what you said in your opening statement, 
earlier in the week, in contrast to later when you were clearly 
fully engaged, you did seem curiously disengaged to me, and the 
best example of that is on Tuesday morning, the day after 
landfall, when you are aware of the significant failures in the 
levees and you are aware that the City of New Orleans is 
flooding rapidly, and yet you make the decision to continue 
with your schedule and to fly to Atlanta with Secretary Levitt 
to attend a conference on avian flu.
    Now, avian flu is an important potential threat, but 
Katrina was an immediate crisis. I just don't understand why 
you didn't cancel those plans, return immediately to the 
Emergency Operations Center, and take control.
    Secretary Chertoff. I think I can address both of the 
questions or the comments by talking a little bit about Monday 
and Tuesday.
    Let me begin by saying, and I encourage you to look again 
at the Sunday video teleconference, going into the hurricane, 
both in the words and in the demeanor, Michael Brown gave me no 
reason to doubt his commitment to work and use all of the 
assets available to make this response as capable as possible. 
So I had no sense going in that whatever his personal feelings 
were, there was going to be a problem.
    On Monday, and I am sure we will get into this later, I was 
concerned about the levees. The original projection, I think, 
in Hurricane Pam, which actually projected, I think, 60,000 
deaths, was for an over-topping, a single surge that would 
overtake and flood the city, whereas levee breaching, which in 
some ways presents a much more difficult set of challenges, was 
not actually what was anticipated.
    My focus in that on Monday, once the storm had passed 
sufficiently to start getting reports from the ground, was to 
tap into the Homeland Security Operations Center, either by 
going back and forth or having people come up or by getting on 
the phone to see what was the ground truth, what was the real 
situation on the ground, and I remember specifically asking 
about what are the conditions of the levees and hearing at some 
point early in the afternoon an initial report that said there 
may be some over-topping, there may be some loss of the, I 
guess they call it rip-rap or something on top of the levees, 
but no substantial levee breach.
    I knew I was going to get a situational report at 6 p.m., 
which would give me a complete laydown of all the assets and 
all the conditions on the ground. I think the situation report 
is part of what has been submitted. I probably actually got it 
a little bit closer to 7 p.m. And I remember quite specifically 
that report said there was no--there are some reports of 
breaching, but nothing has been confirmed. We are looking into 
it.
    So I was mindful of the issue of breaching because I knew 
that if we had a substantial breach, I don't mean a small 
breach, that would pose a second set of problems.
    I am sure we will get into the question of why I didn't 
hear about e-mails that came later that night, but I will tell 
you at least when I went to bed, it was my belief, and it was 
somewhat fortified by things I saw on TV, that actually, the 
storm had not done the worst that had been imagined. I think it 
actually moved a little bit to the east at the last minute.
    On Monday, I thought about whether I should go down to the 
hurricane area, and we actually had a discussion about that in 
my office, about whether I ought to go down to Baton Rouge 
where the Emergency Operations Center and Mike Brown was. I 
determined not to do it because I was concerned about coming in 
and actually interfering with the operators in the first 24 
hours of the post-hurricane operation.
    Now, I will tell you that I have a respect for the 
difference between the operator and the person who is leading 
the organization. The operator is very much involved in the 
immediate decisions of what goes on. I have been an operator. I 
was an operator on September 11, and I know the way I dealt 
with the Attorney General on September 11. So I would try to be 
sensitive to not getting in his hair, but also be supportive.
    The decision I made was not to go to an avian flu 
conference but to do two things on Tuesday, go down to a 
meeting at the CDC about avian flu with Secretary Levitt, and I 
want to make it clear, this is not a conference like you go to 
in a hotel. This was a meeting among the top leaders of the 
Department to kick-start our preparedness for avian flu.
    But second, to go to the Emergency Operations Center in 
Atlanta, which is where Region IV is located. Region IV had 
half the responsibility for coordinating the response for 
Katrina. My thought was that would be a way of my getting 
another perspective and visibility on what was going on on the 
ground, talking to operational people without getting into a 
situation where Mike Brown felt someone was coming and now 
actually creating a question about who's running the immediate 
incident management in the field.
    On Tuesday morning at around 7 a.m., I got the spot report 
that indicated there had been a substantial levee breach. I 
then tried--I made a determination, since I was going to go to 
the operations center, I ought to continue with the trip. And I 
need to make clear that the Federal Government spends a 
considerable amount of effort providing me with 24-hour 
communications. There is never a moment that I am not within a 
hand's reach of a secure telephone, a secure fax, and literally 
what I have in my office. So it is the hardware and the ability 
to communicate, that full capability was with me every moment 
that I went down, and I, frankly, spent a lot of time on the 
phone and in communication back with headquarters during 
Tuesday.
    So with that capability in mind, I did take the trip. I did 
ask the question immediately, is this an irreparable breach? 
What is the area that is going to be flooded? And as reports 
came in, as information came in, I became aware of the fact 
that this was almost the worst possible levee breach because it 
would submerge a large center part of the city. I don't want to 
give a long answer, but I want to give you a complete answer.
    I knew at that point that there were three immediate things 
that had to be done. Search and rescue had to be accelerated 
because you were dealing with potentially hours where people's 
lives were in the balance. Second, we had to make sure there 
was food and water for people who were stranded. And third, we 
had to think about a second evacuation. Those needed to be done 
in that order because saving lives in search and rescue is a 
matter of hours. Food and water is a matter of hours. 
Evacuation is a matter of a day or two. And really, from that 
point on, I continued either by telephone or in person to 
repeatedly pulse back at headquarters and in the field, 
frankly, to see how we were doing on those things.
    The last thing I want to add is the e-mail you read about 
my conversation with Michael Brown occurred on Tuesday night, 
and as part of my effort to get truth on Tuesday about now what 
was the plan for this second evacuation--because by the way, 
the Coast Guard, I got very good reporting from throughout the 
thing. I heard that there were approximately 450 buses lined up 
to come. I did not have a confidence that there was a plan that 
was visible to me. I wanted to get the incident manager on the 
phone. I had difficulty getting it. I heard that he was flying 
around with governors and other people, that he was thinking 
about a TV appearance, and I gave him a very clear message. Job 
one is to get this thing done. Sit in the operations center. 
Get with the relevant managers. Make sure you are taking care 
of all these issues, and that is the Tuesday call.
    Chairman Collins. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman.
    Mr. Secretary, in my opening statement I said that 
according to the law, you were the lead Federal official in 
charge of preparation for and response to disasters, and 
obviously you were both a distinguished lawyer and a 
distinguished judge before you assumed this position, so I 
appreciate the fact that you said in your opening statement 
that you understand that you are the prime Federal official 
that has that responsibility and that you accept the 
accountability for it.
    Very briefly, pursuant to the Homeland Security Act, 
President Bush issued Homeland Security Presidential Directive 
5 in February 2003, which said that the Secretary of Homeland 
Security is the Principal Federal Official for domestic 
incident management responsible for coordinating Federal 
operations within the United States to prepare for, respond to, 
and recover from terrorist attacks, major disasters, and other 
emergencies.
    And then the National Response Plan issued in January 2005, 
an update of the previous Federal Response Plan, among its 
changes made one very significant change, and that was to take 
FEMA out of the lead position in disaster management and give 
it to the Secretary of the Department of Homeland Security.
    That is a very strong legal premise for your 
accountability, and I want to just make sure I understood that 
though you accepted responsibility, at one point you said, 
honestly, I am not a hurricane operator, and that is why in 
some sense I gather you are saying you deferred to others. 
Nonetheless, I assume, pursuant to the laws that I have 
described, you accept ultimate responsibility.
    Secretary Chertoff. I want to be completely clear. Not only 
do I accept responsibility in a legal sense, I took seriously 
my responsibility to make sure things were operating properly. 
When I talk about being the operator, the example I use is the 
person who actually makes the operational decisions about which 
particular assets are deployed where, how you are to conduct 
search and rescue, and the way the NRP works is----
    Senator Lieberman. Wait a minute. Excuse me because I 
accept that, and I have a limited time. I want to get to the 
weekend before the landfall. We spent a lot of time in these 
investigations on Hurricane Pam, which was a mock hurricane 
exercise, fortunately much more powerful and damaging than 
Katrina turned out to be. I assume that you were familiar with 
the Hurricane Pam exercise, is that right?
    Secretary Chertoff. Yes.
    Senator Lieberman. And Hurricane Pam showed that Federal, 
State, and local agencies were not ready to deal with the Pam 
or Katrina-type hurricane, is that correct?
    Secretary Chertoff. I think actually Pam itself was not 
fully complete. I think the evacuation piece was done in the 
summer of 2005----
    Senator Lieberman. But generally speaking, it was clear 
that there was a lot to do to get ready for a Katrina-type 
hurricane. I want to go to the weekend before the hurricane 
struck. I know that some people said after the hurricane that 
there was a misimpression first that New Orleans had dodged the 
bullet, but by the evidence the Committee has gathered, and to 
some extent by what you have said in your opening statement, by 
Sunday night before the Monday morning of landfall, it was very 
clear that there was a loaded gun poised and aimed at the City 
of New Orleans. There were reports all throughout the weekend.
    On Saturday at 9 a.m., FEMA produces slides at headquarters 
that state current predicted path takes storm directly over New 
Orleans. The slides state the Hurricane Pam exercise predicted 
60,000 fatalities and 1 million-plus persons displaced, and 
then goes on to say Pam's estimates are exceeded by Hurricane 
Katrina real-life impacts, projecting at that point that there 
could be more than 60,000 fatalities, a million-plus persons 
displaced.
    Dr. Mayfield is warning constantly about the seriousness. 
Sunday afternoon, National Infrastructure Simulation and 
Analysis Center within DHS puts out a report saying Katrina was 
a Category 4 storm or higher that would ``likely lead to severe 
flooding and/or levee breaching that could leave the New 
Orleans metro area submerged for weeks or months.'' That is 
Sunday afternoon from within DHS.
    So it is quite correct, and I wrote down what you said, 
beginning the week before, we were, you said, acutely aware of 
Katrina and the risk it posed, and finally, we knew that it 
potentially would hit New Orleans, and I quote what you said, 
``with potentially catastrophic consequences.''
    So the question that I have builds on this, and it is that 
our investigation has nonetheless revealed, though you 
understood by your statement today that this was a catastrophic 
hurricane, that prior to landfall, there were many things that 
were not done, that were done later in the week. For instance, 
you did not designate a Principal Federal Officer that weekend 
as required by the National Response Plan. You did not stand up 
the Interagency Incident Management Group that weekend as 
required by the National Response Plan. You didn't designate a 
law enforcement component within DHS to serve as the co-lead 
for law enforcement under the NRP. And based on the projections 
in the FEMA report I have cited and the NISAC report of an 
enormous number of fatalities and displaced persons, you did 
not direct FEMA to task the Department of Transportation, or 
you didn't talk to DOT itself to obtain and immediately move 
buses to New Orleans so that the people who were not able to 
get out of New Orleans before landfall would not be left in the 
horrific conditions that we all observed at the Superdome and 
the convention center.
    I want to contrast that with what happened 3 days later 
after DHS, to use your Deputy Michael Jackson's term, kicked it 
up a notch and the Federal Government took very powerful 
actions. Countries saw just how impressive that response was.
    So the question really is, how do you explain the 
Department's failure, your failure to take much more aggressive 
action over the weekend before landfall since you knew that 
this storm was going to hit New Orleans with potentially 
catastrophic consequences?
    Secretary Chertoff. Let me try to unpack all the steps of 
the question and begin by saying I think that the recognition 
of the catastrophic possibility here--of course, and it was a 
potential, you have to prepare for the worst, you hope for the 
best, is reflected by the President's declaration of emergency, 
which as I said was virtually unprecedented.
    Senator Lieberman. Could I ask you a question on that?
    Secretary Chertoff. Yes.
    Senator Lieberman. As you know, I believe, or let me ask 
you, did you know at that point that when the President 
declares an emergency, it automatically becomes an incident of 
national significance?
    Secretary Chertoff. Yes.
    Senator Lieberman. And charges you with the responsibility?
    Secretary Chertoff. Correct.
    Senator Lieberman. The question, and I don't want you to 
spend a lot of time on this, but I was puzzled by Tuesday 
evening, I think announced Wednesday morning, you formally 
announced that this was an incident of national significance. 
It raised a question about whether you knew it over the 
weekend.
    Secretary Chertoff. The answer is that on Tuesday, we had a 
cabinet meeting the next day, and I wanted to formalize the 
appointment of Michael Brown as PFO, and it was, I guess, kind 
of a judicial hangover. You tend to write in a formalistic 
style. But my understanding of the plan and my reading of the 
plan then and now is that by dint of declaring the emergency, 
it automatically made it an incident of national significance.
    Senator Lieberman. That is my reading, as well.
    Secretary Chertoff. And that is why I became personally 
involved in it.
    As far as the IIMG is concerned, the IIMG was kept 
briefed----
    Senator Lieberman. So why did you declare it again on 
Tuesday if you knew that it----
    Secretary Chertoff. I think because I had never done any 
paperwork in my own hand. I said to somebody afterwards, this 
is probably a judicial hangover. It is the way I was used to 
writing. In truth, I didn't need to do it. I was told I didn't 
need to do it. But I just did it to formalize it.
    Senator Lieberman. OK. So again, you are testifying this 
morning that as of the President's declaration of emergency, 
which by your testimony was unusual, maybe unprecedented, you 
knew that it was notched up.
    Secretary Chertoff. Correct.
    Senator Lieberman. It was an incident of national 
significance, which gave you more authority and responsibility 
to mobilize the resources of the Federal Government. So I ask 
again why more was not done over the weekend.
    Secretary Chertoff. And let me make clear, it gives me more 
authority to coordinate it. It doesn't actually change my legal 
authorities. So let me talk about the individual things we are 
discussing, and I think you raised three. You raised the PFO, 
the IIMG, and the issue of transportation.
    Senator Lieberman. Right, and the law enforcement.
    Secretary Chertoff. First, as it relates to the IIMG, which 
is a group of representatives of the agencies who come together 
to provide strategic guidance, that group was kept in the loop. 
It was briefed. It was brought in on Monday. It didn't actually 
stand up until Tuesday. If this had been a different kind of a 
catastrophe, one that FEMA was not accustomed to dealing with, 
like a biological incident, I would certainly have triggered 
that group right away. I think on July 7, when the London 
bombings came up, we triggered that group right away.
    But I have to tell you, at least at the time, it was my 
judgment that if there is any area where the expertise resided 
around that table at the National Response Coordination Center, 
it is hurricanes. I mean, there is no group of people who have 
spent more time on that than the people at the NRCC. So I 
frankly viewed that group as the source of operational advice 
and even strategic advice going forward.
    Likewise, in terms of declaring Michael Brown a PFO----
    Senator Lieberman. Why not do that right away on Saturday 
after----
    Secretary Chertoff. With the PFO?
    Senator Lieberman. Yes.
    Secretary Chertoff. Because, again, and this may reflect 
kind of a practical reality as opposed to formality, the 
function of the PFO is to represent the Secretary and basically 
exercise his authority in terms of coordination. It doesn't 
exercise command authority, it is a coordinating authority.
    If I had brought somebody outside the chain of command, I 
probably would have done it right away. But given the fact that 
Michael Brown was an Under Secretary of the Department, so he 
was the third ranking member of the Department, at least in 
terms of level, and given the fact that he and the team working 
on this had been working together for a week, I frankly didn't 
think it was necessary at that point to add an additional title 
or additional measure of authority.
    When the cabinet meeting came up, I guess in recognition of 
the fact that, first of all, this was going to be actually a 
much longer process of rescue than we originally hoped it would 
be, I wanted to make sure that, out of courtesy to my 
colleagues, I was very clear to them that I was conveying to 
Michael Brown every ounce of authority to speak on my behalf in 
the field as the operator as I could do.
    With respect to the issue of transportation, let me say 
that in that first couple of days after I learned about the 
levee breach, it was clear to me that the biggest failure was 
not getting buses in. We did a very good job with rescue, and I 
kept very close tabs through the Coast Guard on the number of 
missions flown----
    Senator Lieberman. How about on the weekend before the 
storm hit New Orleans, knowing that the predictions were for a 
very large number of displaced people? Why not mobilize Federal 
DOT resources? We had a witness here from DOT who said they 
began to get ready to deliver buses under a contract, a stand-
by contract they had on the previous Friday but were not asked.
    Secretary Chertoff. Well, I can't tell you specifically 
about buses, but I know, because I remember this particularly, 
if you go back to that Sunday conference, there was a specific 
question about activating ESF-1, which is the Department of 
Transportation and the Movement Coordination Center. So my 
understanding on Sunday was that the people whose job it is at 
the Department of Transportation to move all this, get buses, 
planes, or trains, had been stood up and were now working on 
the contingency plans to do that. I will acknowledge to you I 
did not call the Department of Transportation and say, I want 
to see the plan.
    On Thursday--actually, on Tuesday and Wednesday, after 
landfall, I expected to then see the plan. And my heated 
conversation with Mr. Brown, if I can describe it that way on 
Tuesday, and my consistent, if I can use the word nudging, 
nudging the Department, nudging, prodding, poking, and 
ultimately raising my voice about buses on Wednesday led to a 
decision by the deputy and me on Thursday that we needed to 
simply take this away and get it done ourselves. That was, by 
the way, a failure of--that is not what I should have been 
doing and not what the deputy should have been doing and 
reflected my frustration.
    Senator Lieberman. I thank you for answering. My time is 
up. I assume if you give me just a one-word answer, that as you 
look back, you agree that the Department's preparations over 
the weekend preceding Hurricane Katrina hitting the Gulf Coast 
were inadequate?
    Secretary Chertoff. Yes, particularly in the area of bus 
transportation.
    Senator Lieberman. Thank you.
    Chairman Collins. Senator Warner.

              OPENING STATEMENT OF SENATOR WARNER

    Senator Warner. Thank you, Madam Chairman.
    Mr. Secretary, first, there is a report out today issued by 
the House of Representatives. Our Committee will eventually 
issue its report, but I would say that--looking around the 
table, I think I am the longest-serving Member except for 
Senator Levin--I have the highest degree of confidence in this 
Chairman and this Ranking Member of any two Senators here in 
this building, and I am confident that our report will be fair 
and objective, and it will reflect on your statements this 
morning, where you step up and accept accountability. That is 
exceedingly important in all realms of our government and I 
commend you for that.
    I wonder if you would just indulge me in a personal story. 
It coincidentally was in February 1969, when President Nixon 
took office and I was privileged to join the Department of 
Defense in the Navy as Under Secretary and then the Secretary, 
and a remarkable man became Secretary of Defense, Melvin Laird, 
who left the Congress and took on that job, and it was in the 
middle of a war.
    Now, I mention this because a number of us had known 
President Nixon for many years. I had been with him in his 
first campaign as an advance man, traveled with him to 12 
States, kept abreast of him and worked with him during the 
interregnum, and I mention that only that when Laird formed his 
Department, put it together, he brought us all into a room one 
day and closed the door, and he looked at us straight in the 
eye and he said, ``Now, I want to make it clear. Many of you 
have known the President. You have varying degrees of personal 
relationships.'' I am saying with a sense of humility I did 
know him quite well. And, he said, ``but I want you to 
understand I am the Secretary, and from this moment forward, I 
and I, alone, will communicate with the President. If there is 
anyone that feels that you have a need to do some direct 
communication, give me the courtesy of letting me know and then 
we will talk it through together.''
    As I say, this country was in a tough situation in that 
war, taking over the responsibilities, and that worked. I will 
never forget that. You might tuck that away for future 
reference.
    Secretary Chertoff. A good piece of advice.
    Senator Warner. And he also said, ``If anyone decides to 
violate that rule, please pack up and say goodbye,'' and that 
was understood.
    Now, we go to the question of people in charge and chain of 
command. In your written testimony, you said ``We must have a 
clear chain of command for managing incidents, and we must have 
a unity of purpose across our Department.'' You are addressing 
that and putting together a very important part of this 
Committee's record. So many people felt that they had a measure 
of take charge, and you have the sovereignty of the States to 
deal with and the governors, and I suppose mayors consider 
themselves a subset of the sovereignty. This one, I think, 
exercised some of that thought. You have the FEMA director, the 
National Guard, the Coast Guard, the active duty military, all 
these components.
    Lessons learned from this, how do you propose in a future 
situation, and we must focus on that, how do you propose to 
sort through all of those situations?
    Secretary Chertoff. I think, Senator, you put your finger 
on the most challenging element of this, precisely because you 
have, first of all, State and local governments with elected 
officials. You have a lot of different departments, and they 
all have their own authorities. And I can't say I have got a 
complete answer, and I think I am looking in part to this 
Committee's report and also what Assistant to the President 
Townsend is going to suggest, but I can give you some ideas.
    First of all, I think just as a mechanical matter, this 
idea that we have separate operations centers where one 
delivers something to something else in DHS makes no sense. We 
don't yet have the campus that would allow us to literally have 
one operations center, but we are in the process of building 
the hardware and also the culture that gives everybody 
simultaneous visibility.
    Second element, and I saw this work much better in 
Hurricane Rita, is relations with DOD. We all knew in theory in 
August that Northern Command and Department of Homeland 
Security would have to work together as partners, but knowing 
that and not actually having practiced it and having gotten out 
there and done the work doesn't allow you to actually execute 
as well as you should. That is why we did better in Hurricane 
Rita than Katrina.
    The Department of Defense NORTHCOM is going to be putting 
some of its planners into our regional offices. We have got 
some people over at NORTHCOM. We are looking in some way to set 
up a regional preparedness function under our new Under 
Secretary so that we can get closer to the States in various 
regions a cell of DOD and DHS planners who can work with the 
State and locals to build that relationship.
    Senator Warner. That is an interesting response, and I 
would hope that prior to finalizing that you might come up and 
acquaint the Committee with your proposals such that if we have 
some thoughts, that we might be able to contribute them because 
that unity of command is absolutely essential. You do have the 
subset of problems between the active duty forces, whether or 
not to nationalize the National Guard. Now, that is a matter 
that the President really has to work out with the respective 
governors if that is necessary, and then your integration with, 
again, the National Guard of that State.
    In this situation, I felt--and by the way, I think General 
Honore did a superb job as did all the men and women in 
uniform, be they active or Guard or Reserve. Do you feel that?
    Secretary Chertoff. I do. I think they did an outstanding 
job.
    Senator Warner. But all of the individuals, right down to 
the privates and the sergeants that were there----
    Secretary Chertoff. Absolutely.
    Senator Warner [continuing]. Integrating that, and it is a 
great credit to the military that they will step in. But I 
think through personality and the ability to know how to 
exercise command, Honore and the Adjutant General certainly of 
Louisiana worked out their situations quite well. Do you agree 
with that?
    Secretary Chertoff. I do.
    Senator Warner. The distinguished Ranking Member talked 
about the National Response Plan, and I wasn't certain I was 
listening carefully to your response. Do you feel it was or was 
not followed?
    Secretary Chertoff. I think it was--well, let me put it 
this way. Until last Friday, I believed that problems in 
actually following it were just inherent in the fact that the 
situation was overwhelming and it was a new plan. I mean, I 
think it was--it had never been used before. Friday, I think I 
heard from a witness additional facts which now cause me to 
believe there may have been a choice not to follow it, but I 
will tell you, that was news to me.
    Senator Warner. So do you feel that the NRP as written is 
adequate, or do you wish to make some changes as we go to the 
future?
    Secretary Chertoff. I think we need to look at some changes 
because I think it winds up sometimes being cumbersome. It is 
evident to me, for example, that there is genuine confusion 
about some of the elements of the plan and when you have to do 
certain things. Rather than try to argue as if we are talking 
about a legal document, I think we ought to clarify it and 
simplify it. But I think the basic concept of an integrated 
management system is a correct concept.
    Senator Warner. Well, again, I would hope that this 
Committee would be involved before that was finalized because 
we all bear a measure of responsibility in a natural disaster 
of these proportions. It just isn't the Executive Branch, it is 
the Congress, and we want to be supportive because we have 
learned from bitter experience in this the element of human 
suffering.
    You heard the gentleman behind you get up and speak out 
about the plight of so many individuals today. I know they are 
foremost in your mind. What active steps are you taking today 
to try and alleviate the suffering that is taking place every 
hour we sit here?
    Secretary Chertoff. Here is the program we have in place. 
In order to transition people from having the government 
directly pay for hotels, which are very expensive, to having 
people receiving assistance that they can use to find places to 
live or receiving trailers, we put in a process, a program, to 
first of all validate the appropriateness of everybody in the 
hotel to see who is, in fact, entitled to be there and who 
isn't, get them their money, and then give them a couple of 
weeks from the time they get their money to find someplace to 
live. We have sent--we have done a lot of intensive work 
sending teams in to meet with people in hotels to give them 
housing solutions. If they have to wait for trailers or if they 
have to wait for apartments, they will have individual 
assistance that they can use to pay for places to live until 
that happens.
    I know the hotels are a little impatient and with tourism 
coming up, some of them want to push people out. We have tried 
very hard to be very sensitive to helping people find housing, 
but ultimately move us away from what is a very expensive 
program of having large numbers of people in hotels.
    Senator Warner. Could you fill in, in the few seconds I 
have left, the story of the trailers and the accuracy of it and 
the situation because it really, the compassion of the American 
people is enormous for those suffering, and when they hear 
stories like this, they feel it quite disturbing, and 
expenditures being used for purposes totally unrelated, in 
other words, compensation somehow they have received in other 
areas, totally unrelated to alleviating that suffering.
    Secretary Chertoff. Well, we knew in the first week that 
the scale of people who would require assistance being so large 
and being so widely dispersed, we would have to reconcile two 
imperatives. One is people who had literally swum out of their 
houses with nothing but the clothes on their back who needed to 
have money for food and clothing, and then people who are going 
to try to cheat you.
    So we got the Inspector General in right away, and we said, 
look, we are trying to devise a program to get money to people 
as quickly as we can and yet try to build in some way to avoid 
fraud. I don't think we were entirely successful because (a) of 
the scale and (b) we didn't have the systems in place.
    One thing I am happy to say is this. The criticism that our 
telephone system did not allow us to validate who people were 
and the addresses has now been corrected. We have taken the 
program that was used to validate people who registered online 
and in the last couple of weeks we have made it operational for 
telephones, as well. So there are a series of steps we are 
taking through implementing the financial controls that will 
eliminate at least a large part of this threat in the future.
    But I think part of it is also prosecuting people who try 
to rip us off.
    Senator Warner. Madam Chairman, my time is up. I wish you 
and your Department good luck in the future.
    Secretary Chertoff. Thank you.
    Senator Warner. Thank you very much. You didn't cover the 
trailers, but maybe later you can speak about the trailers.
    Chairman Collins. Senator Dayton.

              OPENING STATEMENT OF SENATOR DAYTON

    Senator Dayton. Thank you, Madam Chairman.
    The House Committee's report that has just been released 
says it remains difficult to understand how government could 
respond so ineffectively to a disaster that was anticipated for 
years and for which specific dire warnings had been issued for 
days. The crisis was not only predictable, it was predicted. If 
this is what happens when we have advance warning, we shudder 
to imagine the consequences when we do not.
    As those of us who accompanied the Chairman and the Ranking 
Member recently to Mississippi and New Orleans can attest, this 
failure of response was not just in the immediate aftermath of 
the hurricane. It remains and continues to this day. According 
to one article in the Washington Post, vast sections of the 
City of New Orleans are still without utilities. Without 
electricity, businesses can't open their doors. New Orleans is 
a Gordian knot of complications that has tied up about 
everyone. Everyone is waiting for the FEMA maps like they were 
oracles of Delphi because the maps will tell residents and 
businesses where and how they can rebuild. Those maps are not 
likely to be finally released until August, a year after the 
hurricane has occurred. As Senator Warner pointed out, we heard 
testimony from the Inspector General that mobile homes and the 
like that have been bought are just an incredible waste of 
money that are sitting and rotting in, ironically, Hope, 
Arkansas.
    So this incompetence and this lack of a capable response by 
FEMA and by DHS continues to this day. That, to me, is if 
anything more disturbing than the failure of the immediate 
response. I think they are both critically important, but this 
is ongoing. As I will get into later in my second round, 
Roseau, Minnesota, a small town in Northern Minnesota, has 
struggled for 3 years after a flood to get approval for a 
$619,000 project that has just been in the regional office 
going around and around. FEMA should be out of Roseau by now. 
This occurred in June 2003. They should be on to whatever, but 
it goes on and on. People get dragged on. These are responsible 
local officials just trying to rebuild their community, which 
was flooded, and they can't get a $619,000 project.
    The problems in FEMA are so systemic and so ingrained, I 
just frankly don't know, other than turning the responsibility 
over to the National Guard and making some chain of command 
temporarily responsible for immediate emergencies until you can 
go back and start this agency all over again because this is 
just so dysfunctional or nonfunctional, it is frightening, and 
it sets up expectations that people in an emergency are going 
to get helped, and they don't. SBA and the housing, all this 
just goes on and on, and New Orleans is a macro example, but 
there are these smaller examples all over.
    The Committee report goes on to say that Katrina was a 
failure of initiative. It was a failure of leadership, it says. 
Mr. Brown, who I realize you inherited, was the roommate of the 
previous Director of FEMA, resigned in part because of issues 
that were raised about falsification of his qualifications in 
his resume. The predecessor, Mr. Albaugh, was the national 
campaign manager for the President's 2000 election campaign. 
According to this bio in Wikipedia, Mr. Albaugh brought about 
several internal reorganizations of FEMA designed to shrink the 
agency in size and scope, and particularly, the Albaugh FEMA 
diminished the Clinton Administration's organizational emphasis 
on disaster mitigation in favor of terrorism response. That is 
an accusation that Mr. Brown made himself last week.
    But where this gets current and relevant is he says in 
March 2005, Mr. Albaugh registered as a lobbyist on behalf of 
Kellogg, Brown and Root, which is the firm, a subsidiary of 
Halliburton Corporation, that we have received testimony has 
failed on numerous occasions in Iraq and has, according to that 
Inspector General, over $1 billion of questionable charges.
    Two of his clients, Mr. Albaugh's clients, Kellogg, Brown 
and Root, and the Shaw Group, reading the list of contracts 
received in the aftermath of Hurricane Katrina, appear again 
and again--roof repaired in Louisiana, Shaw Constructors, Inc. 
Water removal, City of New Orleans, and these are projects, as 
I say, that in cases have been delayed or not even begun to 
occur. Unwatering, Kellogg, Brown and Root, contingency support 
for INS, temporary expansion of facilities, Kellogg, Brown and 
Root. FEMA's prime contractors, of which there are four, one 
being the Shaw Group. It has on its website the saying, 
``Hurricane Recovery Projects, Apply Here.'' It received a $100 
million emergency FEMA contract for housing management and 
construction. The Shaw Group received a $100 million order from 
the Army Corps of Engineers for work.
    Another article says the Army Corps of Engineers awarded a 
contract worth up to $385 million for the building of temporary 
immigration detention centers to Kellogg, Brown and Root. 
Another one says KBR won a $33 million contract from the Naval 
Facilities Engineering Command for Hurricane Katrina 
stabilization and recovery.
    So here you have a situation where somebody who downsized 
the agency and people who are basically then turning around and 
getting contracts, some of them big sole-source contracts, that 
they haven't performed on and they are continuing because these 
two $100 million awards that I cited for KBR, or for the Shaw 
Group, I am sorry, were awarded just in the last couple of 
weeks.
    You have, I think, a political scandal of enormous 
proportions not only in what happened immediately because of 
the failures of communication, but the opportunistic greed that 
has dominated this recovery project is one that needs to be 
rooted out and eliminated, and you need to find, if it is 
possible to find it given FEMA's reputation, people who are 
professionals, who are trained and experienced with 
professional management of disaster recovery, which is what 
FEMA is charged to do, who aren't put in these key positions 
because of their prior political campaign experience, who 
aren't allowed to then leave office and turn around and become 
consultants for companies that are making hundreds of millions 
of dollars off the misery of the people that are still 
suffering down there and not even performing on the contracts.
    I think you have a monumental disaster, and I think FEMA is 
the disaster today. It is an even greater disaster than the 
disasters it is supposed to be addressing.
    Secretary Chertoff. This is a lot to respond to. Maybe I 
can just do it briefly this way. As we get into recovery, of 
course, that engages a lot of different elements, a lot of 
different departments. You are quite right that we continue to 
have open on the books disasters from over 10 years ago. The 
Northridge earthquake, which I think was in 1993 or 1994, we 
still have a FEMA office open there, and I think that raises 
some interesting questions about the way in which we handle 
long-term recovery, which I think has grown like topsy over the 
last few years.
    In terms of things like some of the frustrations in New 
Orleans, of course, the President has a Gulf Coast coordinator 
who is working closely with the States and locals. Sometimes 
these are matters of problems at FEMA. Sometimes there were 
trailers that were sitting staged that for a long time no one 
wanted to give occupancy permits because nobody wanted to have 
it, as they say, in my backyard. So we had to get local 
permission. We don't have the ability to say to mayors, take 
it. You have to. You have no choice. We have had problems with 
utility companies in terms of hooking things up.
    So there is a lot to work on in FEMA. One thing I will tell 
you, though, is that the President has appointed some really 
outstanding people to help me in this Department since I have 
come on board. George Foresman, for example, who is our Under 
Secretary for Preparedness, has spent 30 years, most recently 
as Governor Warner of Virginia's Homeland Security Advisor, 
working in the area of homeland security and emergency 
management. We are looking at people, ultimately--we have Dave 
Paulison, who has 30 years in emergency management in Florida 
as the Acting Director.
    So we are committed to getting people in here who have the 
appropriate skills to run their particular components, and we 
know we have a lot of work to do with FEMA. We have started to 
talk about some of the things we need to do, and one of the 
things I look forward to is having the Committee talk about 
some of these long-term recovery issues and how to deal with 
them.
    Senator Dayton. Mr. Secretary, when I go back to the 
sequence of events regarding information, and you have 
acknowledged that was a problem, but Mr. Bahamonde testified 
before this Committee that at approximately 11 a.m. on Monday 
morning, the worst possible news came into the Emergency 
Operations Center. I stood there and listened to the first 
report of the levee break at the 17th Street Canal. They added 
that it was ``very bad.'' We have here pictures that he took 
from a U.S. Coast Guard helicopter at about 5:30 p.m. on Monday 
afternoon. I mean, this is New Orleans underwater. This is not, 
as you said earlier, the possibility of 80 percent flooding, 
this is 80 percent flooding that has already occurred, that has 
been documented by the one FEMA individual on site at 5:30 in 
the afternoon.
    He said that he then contacted the FEMA headquarters three 
different times--including Mr. Brown, yet we had testimony last 
week from General Broderick, head of the HSOC, that he left the 
office that Monday evening unaware. He said there were 
conflicting reports, but this is about as hard to refute as 
anything I could imagine. He came in the next morning at 6 a.m. 
and became convinced that there had been, in fact, major 
breaches and flooding. He, then, according to his testimony, 
didn't tell Assistant Secretary Stephan until 11:30 in the 
morning that this catastrophe had already occurred, which it 
was first identified 24 hours previously by somebody, an 
eyewitness.
    Talk about situational awareness, you have people that are 
taking pictures from helicopters that are communicating. How 
much more situational awareness could anybody at your level 
have?
    Secretary Chertoff. Well, I think this comes directly back 
to the point of integration. As I later learned, and I actually 
spoke to Marty Bahamonde the weekend after landfall and for the 
first time actually heard from him what had happened, which no 
one had told me before then, he took these pictures, I guess, 
in the late afternoon or early evening around 6 p.m. There is 
no question this is exactly the kind of image that should have 
come into the HSOC and would have immediately, it seems to me, 
alerted everybody that we had a major breach.
    I have a lot of respect for General Broderick, and I think 
you read his resume. He spent more time running operations 
centers and handling crises for the Marine Corps than anybody I 
have ever met. I trust him implicitly to sift information. I am 
confident that had he had this, he would have gotten it to me 
immediately. I can tell you that the 6 a.m. report did get to 
me, so when he got it, he did pass it on to me.
    The fact that there could be people talking about this in 
FEMA and we not know about it is precisely the problem of lack 
of integration. Part of it is hardware and stuff, but I have to 
be honest, part of it is culture, people--this is the 
stovepiping we have dealt with in the intelligence community. 
People sometimes hoard information. I have been in the 
Department of Justice, I have dealt with issues there that are 
similar, and I am dealing with it here. We have got to convince 
people that stovepiping information and hoarding information is 
irresponsible when matters of life and death are involved.
    Senator Dayton. Thank you, Madam Chairman.
    Chairman Collins. Senator Coleman.

              OPENING STATEMENT OF SENATOR COLEMAN

    Senator Coleman. Thank you, Madam Chairman.
    Mr. Secretary, I do appreciate your candor and admission of 
responsibility, which is important. I felt, in listening to 
Michael Brown, that he feigned admission of any sort of 
responsibility, and in fact, I think what he really was doing--
what he testified to when he said very directly, even though he 
asked me--I have apologized; what else should I do? His 
testimony essentially was that DHS and FEMA, their response was 
doomed from the beginning because of the structural 
incorporation of FEMA into DHS. I have been pointing out this 
disfunction. He stated these clashes in the Department, if they 
are not fixed, this Department is doomed to fail. It will fail 
the country.
    Is it your belief that FEMA and DHS were doomed to fail 
because of structural infirmities?
    Secretary Chertoff. No, quite the opposite, and I will tell 
you that the proof of the pudding to me is in a couple of 
stories I will tell you about what happened on Thursday, which 
were examples of situations where finally violating my general 
rule that the operator ought to be in control of the operation, 
the Deputy Secretary and I started to intervene personally into 
operational things because I think--my perception was at the 
time Mr. Brown may not have been aware of the capabilities. 
Maybe now, after the testimony on Friday, he didn't want to use 
them.
    One was the buses, the air bridge out of the Superdome. 
When we learned that the plan was to simply bus everybody to 
Houston, we realized that is going to take forever, so the 
Deputy, working with TSA, which is one of the components of the 
Department, and the private sector was able to get commercial 
aircraft, arrange to come into New Orleans Airport to create an 
air bridge so we could bus people just to the airport and then 
go back and pick up more people. That was one example of 
enhanced capability.
    The second was the Coast Guard. I got a report from the 
Coast Guard on Thursday that there were pockets of people who 
had self-evacuated to a high ground that didn't have water, and 
I guess FEMA wasn't able to respond. So I simply directed the 
Coast Guard to take a helicopter, and I was a little hesitant 
because I didn't want to take them out of another mission, and 
map where those people were so they could go back and deliver 
water.
    Those are examples of capabilities that DHS brought to the 
table. The shame is that we were not made aware of the need to 
do those things a little earlier.
    Senator Coleman. I want to talk about that. The Chairman 
raised the issue of how could you have the guy in charge who 
clearly didn't have respect for chain of command, who basically 
said it was a waste of time to talk to you and was talking to 
the White House. You answered in response to what you know now 
versus what you knew then. I want to go back to kind of what 
you knew then.
    One of the issues is when did you know that New Orleans was 
underwater? You have indicated that you didn't know Monday. You 
went to sleep Monday night thinking, in effect, that you dodged 
a bullet, and so when we woke up reading papers, that was the 
impression you had, and apparently you didn't get information 
from Bahamonde or anybody else talking about the breach, is 
that correct?
    Secretary Chertoff. That is correct.
    Senator Coleman. But then on Tuesday morning, actually, in 
regard to a Tim Russert interview which was September 4, 
Sunday, you talked about what actually happened. You talked 
about New Orleans. You woke up Tuesday. New Orleans dodged a 
bullet. And it was on Tuesday the levee--it may have been 
overnight Monday or Tuesday the levee started to break, and it 
was mid-day Tuesday they became aware of the fact that there 
was no possibility of plugging the gap and essentially the lake 
was going to start to drain into the city. Were you saying here 
that it was Tuesday afternoon, mid-day before you knew----
    Secretary Chertoff. No. What I said----
    Senator Coleman [continuing]. That the break was 
irreparable?
    Secretary Chertoff. No, what I said was this, and I 
apologize a little bit because I think I was on 4 hours of 
sleep over 48 hours when I did that interview from the field 
outside of New Orleans. What I said, my understanding at the 
time, as late as Sunday, was that the breach had occurred 
overnight Monday because I found out about it first thing, 6 
a.m., Tuesday. Then the question I had is, well, what can be 
done? Is this something the Army Corps can repair? My 
impression is it took a little bit of time to get a definitive 
answer to that. Mid-day is probably not the right word. I knew 
by mid-morning that it was irreparable, and I also knew by mid-
morning that it was situated in a way that would really flood 
the entire city like a bathtub until equilibrium.
    Senator Coleman. On Monday morning, I think it was in 
Exhibit 14,\1\ there is an e-mail from Michael Brown to Patrick 
Rhode, I think, and others saying that he touched Chertoff--
this e-mail is 8:53, so it is 9 in the morning. Brown is saying 
that he touched Chertoff today. ``FYI, he and Leavitt are 
headed to CDC.'' You have testified to that. ``Casually 
mentioned he was going to R4 to give morale boost to R4.'' You 
indicated you went to that Atlanta base. Did you know that? Did 
they know that? When Brown said he touched you, what did you 
and Brown talk about on Monday morning? Did he not explain that 
he understood that the levee was broken, that we were facing a 
great catastrophe?
---------------------------------------------------------------------------
    \1\ Exhibit 14 appears in the Appendix on page 172.
---------------------------------------------------------------------------
    Secretary Chertoff. I don't think he knew--I can't speak 
for him. What I have seen of the record does not suggest to me 
he knew on Monday morning that the levee had been breached. I 
have seen an e-mail, after the fact again, around 12:30 or 
something like that on Monday, where Brown says to somebody, I 
think there is some over-topping. So on Monday morning, I asked 
him for general--I don't remember the exact conversation--what 
is the situation. The storm was still going on. I expected that 
we wouldn't know the full picture. At that point, he did not 
tell me about a levee breach.
    Senator Coleman. How do you respond to the reports or the 
e-mails that the White House knew Monday night about the 
breach. Obviously, you didn't. What happened there?
    Secretary Chertoff. I think the whole idea of dealing with 
conveying information by e-mailing people you know around the 
government is a huge mistake. We have an operations center to 
fuse information. This is, again--I feel like I am back with 
the issues with intelligence. It has got to come to one place. 
If it had come to the HSOC, the HSOC has the responsibility to 
notify the White House Situation Room as well as me.
    Senator Coleman. It was clear, though, that by Wednesday or 
Thursday, clear to Americans, my wife watching TV and then 
talking to her husband, the Senator, and just being aghast at 
what was going on and why can't we get food to the Convention 
Center? What is happening at the Superdome? It was clear that 
Brown was in way over his head, way over his head. Yet on 
Friday, I believe it was Friday, September 2, the President is 
standing there and saying, ``Brownie, you are doing a heck of a 
job,'' which tells me somebody didn't tell the President that 
he has got a FEMA Director who is way over his head, who has 
failed to respond to the needs of the people in the city. All 
of America knows that. It seemed the only people who didn't 
know were the White House and Homeland Security. How did that 
lack of communication take place?
    Secretary Chertoff. Let me give you, again, a kind of a 
play-by-play of my assessment of Mr. Brown as things went on. 
On Wednesday, I was in a cabinet meeting. There were associated 
meetings about this. He actually did communicate with me on 
Wednesday. I was regularly in touch either through the HSOC or 
directly, even talking to people in the field.
    On Thursday, we had the incidents I have described with the 
Coast Guard and the bus, and also it was Thursday when I 
discovered about the Convention Center. I initially asked Mr. 
Brown. He said there are 1,500 people there. Finally, I had to 
send somebody in and have them report back directly.
    Thursday night, I began to--I asked myself, are we dealing 
with a situation where it is not just the inherent overwhelming 
challenge, but that maybe despite good intentions, Mr. Brown is 
really not up to this, and I thought I would go down on Friday 
and see for myself.
    When I came back on Saturday, I concluded I had to replace 
Mr. Brown, at least in Louisiana, and at that point, I 
solicited some suggestions and began the process of bringing 
Admiral Allen in to be the Deputy PFO on Monday.
    Senator Coleman. The President, to his credit, has accepted 
responsibility. I mean, the buck stops at his desk. I would 
suggest, though, Mr. Secretary, that as head of DHS that you 
failed the President by allowing him on Friday to be with 
somebody that at that point in time, I think you had to have 
some real doubts that Michael Brown was capable of providing 
the leadership that needed to be provided in those 
circumstances.
    Secretary Chertoff. I certainly had reservations. First of 
all, I am acutely--look, I mean, my job was to manage this 
incident. I take responsibility for the management, and I want 
to make it completely clear that when Michael Brown said, well, 
he went to the White House for this, it was not the White 
House's responsibility to direct the operation or to direct the 
operator, and it was our Department's responsibility. To the 
extent that failed the President, I feel that very acutely.
    I can't speak for the President. I understand that on 
Friday, notwithstanding my doubts, I believe Mr. Brown was 
doing the best he could. And so I can't say I was offended by 
the fact that--he was very tired. He was up a lot. I don't 
think we should let hindsight color the fact that he worked 
hard. But I certainly on my own began to reevaluate him over 
that period of time.
    Senator Coleman. My concern about that is, again, it is not 
what we know now, but really then. I mean, if all you had to do 
was watch TV then, I think most of America knew by Wednesday 
night and Thursday that FEMA had not responded the way it 
should, and a lack of leadership across the board. I have said 
this was the perfect storm of poor leadership, a governor who 
didn't make decisions, a mayor who was holed up in a hotel 
without communications and wasn't showing leadership, and a 
FEMA Director who clearly did not provide leadership. I think 
we knew it. What concerns me is with all the communications you 
have, everything you tuned into, you are still evaluating 
something that I think is pretty apparent to the rest of us.
    A last comment very quickly because we have to talk about 
today, I was with the Chairman and the Ranking Member. We 
visited Mississippi and New Orleans. To many people, FEMA is a 
four-letter word, a negative four-letter word. There is a lot 
of work that needs to be done, and I do think we have to look 
ahead and deal with the great tragedy that is going on, deal 
with the situation that I think Chairman Warner was getting to. 
You have these trailers, and they are sitting somewhere and not 
functional where people need them.
    So I would hope as we not just look at what happened then, 
but as we are looking at what is happening now, that we don't 
need to do another investigation a year from now as to the 
slowness of the response.
    Secretary Chertoff. Well, do you want me to talk about, not 
trailers, but the mobile homes now? The original conception, I 
think, was just to have mobile home communities in places that 
were outside the flood plain. It turned out, I think, not to be 
the right solution, partly because I don't think communities 
wanted them. What we will do with these mobile homes is we need 
to make sure they are stored properly. They will be used in the 
area and for other purposes.
    More generally, let me leave you with this thought. The 
challenge we have now is we have to continue the recovery 
process, but we have to get ready for June 1, which is my--we 
could have something before June 1, but the hurricane date. So 
we have both of those things to juggle, and that is why I am 
spending a considerable amount of my time now talking about how 
do we rebuild FEMA.
    Senator Coleman. Thank you. Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Pryor.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Thank you, Madam Chairman.
    Let me just make sure I understand this. You used to be on 
the Circuit Court of Appeals.
    Secretary Chertoff. Correct.
    Senator Pryor. So you gave up a lifetime appointment for 
this, is that right? [Laughter.]
    Secretary Chertoff. My wife reminds me of that 
periodically.
    Senator Pryor. I thought you might hear about that from 
some folks. Let me ask you about something that one of our 
Congressmen in Arkansas, Mike Ross, who represents the Fourth 
Congressional District, has talked about a lot in the last few 
days and that is the FEMA trailers that are in Hope, Arkansas. 
They are in an airport there. There has been a lot of news 
coverage on this. As I understand it, there are two types of, 
what do you call them, trailers, manufactured homes----
    Secretary Chertoff. Right.
    Senator Pryor [continuing]. Or whatever terminology you 
would like to use. One type is the type that you have that are 
stored in Hope, and as I understand it, those are maybe a more 
permanent type of home that needs permanent utility hook-ups. 
There is another type that I think you may call in the lingo in 
FEMA, you may call them travel trailers. Is that right? There 
are two types of trailers?
    Secretary Chertoff. There are mobile homes and trailers, 
correct.
    Senator Pryor. OK. And on the travel trailers, they can be 
put in someone's yard. They can be hooked up to the existing 
utilities there. And they can be placed in a floodplain, is 
that correct?
    Secretary Chertoff. That is correct.
    Senator Pryor. And so the first question I have is, who 
made the decision or why was the decision made to go with the 
more permanent-type mobile home rather than the so-called 
travel trailer?
    Secretary Chertoff. Actually, the decision was made to use 
both, and we have acquired many more travel trailers than 
mobile homes. At the time that the dimensions of this became 
clear, there was literally a shortage. I mean, there was not 
enough capacity, and they wanted to contract to get as many 
trailers and as many of any kind of living facility in the 
pipeline as quickly as possible. So we really turned the spigot 
on for the trailers.
    I think the original thought was the mobile homes would be 
an alternative to trailers in places without a floodplain, for 
example, if there were communities around Baton Rouge, we might 
use those for that. I think it has turned out that they are not 
particularly popular in terms of having communities like that, 
and while I still envision we are going to use several thousand 
of those mobile homes where we can instead of trailers, we will 
have to use the excess for non-floodplain places.
    Senator Pryor. So is it your testimony today, just so I am 
clear on this, that it is up to the local communities? If they 
want the trailers, they can have them?
    Secretary Chertoff. Well, no, but they have to agree to 
have them or we can't put them there. If a local community 
says, give me trailers, we still have to allocate among people 
who want them because there is a shortage. But if they say, we 
don't want mobile homes and they don't grant a certificate of 
occupancy, then I don't think we can do anything.
    Senator Pryor. And has that been your experience here, that 
they don't grant a certificate of occupancy?
    Secretary Chertoff. What has been reported to me is that 
there are instances where, with respect to mobile homes or 
trailers sometimes, there are communities that do not want to 
grant a certificate of occupancy if you are going to put a 
group of homes in one place.
    Senator Pryor. Right. And I guess, not to parse words with 
you, but you said it has been reported to you that there are 
incidents of that----
    Secretary Chertoff. Yes.
    Senator Pryor. What I want to get a sense of is how 
widespread that is, because I went down with the Committee to 
that region and my impression from local people is they were 
begging FEMA for trailers and mobile homes, just begging them.
    Secretary Chertoff. Yes, and the reason I say reported to 
me is because not having spoken to the mayors myself, 
necessarily, all of them myself, I don't want to say something 
that turns out to be inaccurate. I think Mississippi is 
different than Louisiana. I think in Mississippi, you have a 
lot of home sites that are habitable right now, and many of 
those people--and this is the traditional hurricane model--many 
of those people want to put a trailer on their home site, they 
hook it up, they are ready to go.
    I think we have satisfied a lot of those needs. I don't 
think we have satisfied all of them. Louisiana is different 
because we have a lot of area that is not habitable, and some 
of what is habitable is still in a floodplain, and there have 
been discussions about, for example, in some communities, 
having groups of mobile homes or groups of trailers in a park, 
and that is where we have sometimes gotten some resistance.
    Senator Pryor. OK. Well, I would like to explore that with 
you further, but our time is short.
    As I understand the policy under the previous 
administration, when James Lee Witt was running FEMA, 
apparently what they would do with trailers or mobile homes is 
they would negotiate with the manufacturers before any storm, 
and they had a series of contracts in the file, so to speak, 
and then once they knew the needs after the flood or after the 
storm, whatever it may be, once they knew the need, they would 
execute the contracts. As I understand it, there has been a 
change in FEMA's policy, and you tell me if I am wrong, but my 
impression is that after this hurricane, you all really started 
almost at ground zero and had to do the negotiations and all 
that after the storm occurred. Is that true?
    Secretary Chertoff. I am not sure that is correct, and so I 
want to make sure that we get back to you on that to find out. 
My impression is there were some contracts, but that the scope 
well exceeded that. And also, there were also some purchases 
that we allowed to be made locally just to meet the need and 
also to help the local communities.
    Senator Pryor. Were these contracts on a competitive bid 
basis?
    Secretary Chertoff. I don't know what the specific 
procurement was with respect to the trailer contracts. So 
again, I don't want to say something here that I am going to be 
wrong about. I think that generally, I agree with you. The 
right answer here is to prearrange contracts up front, and one 
of the reasons I was emphatic about some of the changes I 
announced earlier in my testimony is there is a time line for 
procuring, and we have got to get that started. I think that is 
the right place to go.
    Senator Pryor. OK. Again, I would love for you to get the 
answers to those questions back to the Committee, if possible.
    Another question that you probably won't know right now is 
as I understand, under the current FEMA setup, there was a 
middleman that was hired to somehow go out on the market and 
find these trailers, and I would like to know more about who 
that was and how that contract worked. Were they on a 
percentage or flat fee? I would like to know more.
    Secretary Chertoff. We will have to get that back to you.
    Senator Pryor. And also this issue of the floodplain. You 
can't put these in the floodplain. As I understand it, that is 
a FEMA regulation, is that right?
    Secretary Chertoff. That is my understanding.
    Senator Pryor. And that regulation could be changed?
    Secretary Chertoff. It could be. Now, let me make it clear 
that trailers can be in the floodplain. Mobile homes cannot be.
    Senator Pryor. I am sorry, yes, mobile homes.
    Secretary Chertoff. We could change it. I have actually 
asked about that. I think there would be a serious concern 
about putting a mobile home in a floodplain in an area which is 
likely to be exposed to a hurricane in less than 6 months, and 
one of the things I am trying to caution people about is we 
need to start thinking now about what preparations are being 
made in Louisiana and Mississippi for the upcoming hurricane 
season while we are in the process of rebuilding.
    Senator Pryor. Right. Well, let me talk about, if I can 
follow up on that planning theme that you just mentioned. As I 
understand it, with Hurricane Pam, that simulation was supposed 
to be a two-part simulation. It began in 2002. The first part 
was to simulate a hurricane in the New Orleans area. The second 
part of that was to simulate a massive earthquake in New 
Madrid, Missouri, which, by the way, is immediately north of 
Arkansas and the New Madrid fault actually runs through the 
very northeastern corner of our State, so that is near and dear 
to our hearts, as well. The New Madrid exercise has never been 
done, is that right?
    Secretary Chertoff. I don't know if it has ever been done.
    Senator Pryor. I am pretty sure, you can take my word for 
it, that it has not been done, and it seems to me that here 
again we see a total lack of planning for what scientists and 
seismologists, etc., tell us could be an enormous national 
disaster. And again, it appears that FEMA and the Department of 
Homeland Security are just not prepared for that. So I would 
encourage you to do that exercise, to spend the money, the 
resources, whatever it may be, to do that exercise so that you 
are prepared for that massive earthquake.
    Secretary Chertoff. Well, let me say that you have touched 
on an issue that is very much at the forefront of my mind. The 
President directed and Congress then subsequently legislated a 
requirement that we go to all the States, and this would 
include Missouri, and look at their emergency plans. Our 
deadline for reporting on the first cut was Friday, September 
10. I am pleased to say we made the deadline, which I thought 
was important.
    We are going to have to do this for all the States now. 
Like the rest of my job, we are always in a race against time, 
and I have a great Under Secretary of Preparedness who has a 
lot of experience, and I have tasked him to make sure that this 
gets done as quickly as possible.
    Senator Pryor. OK. Well, the New Madrid fault is a very 
serious fault line in North America, potentially the most 
deadly one that there is.
    The last question I have for you is that Congressman Baker 
of Louisiana has introduced legislation that would create the 
Louisiana Recovery Corporation, and I assume you are familiar 
with that proposal. I would like to get your thoughts on the 
bill, and my understanding is the Administration does not 
support that legislation, but I would like to get your thoughts 
and know if the Administration has taken a position on it.
    Secretary Chertoff. I think the Administration, principally 
through Chairman Powell, who the President is looking to to 
coordinate the recovery phase of this, is working with 
Congressman Baker. I know there are ongoing discussions. We all 
want to achieve the same result. We need to get this process 
kick-started to make sure that we can start the process of 
rebuilding New Orleans, taking account of the fact that we have 
to live with the topography of the city and make some 
accommodations to the challenge that poses.
    Senator Pryor. So in other words, you don't have a position 
on the Baker bill?
    Secretary Chertoff. I don't think at this time the 
Administration's position has been announced. We are continuing 
to work on the issue with Congressman Baker and others. I don't 
have a definitive position to give you.
    Senator Pryor. Madam Chairman, thank you, and I guess just 
on a personal note I would say that I feel like we have given 
the Department of Homeland Security and even Secretary Chertoff 
plenty of time to fix the problems with FEMA and preparedness 
and emergency response, and quite frankly, with all due 
respect, I don't think that they have done it, and I think it 
is probably time for the Congress to come in and offer the fix 
there. Every time we sit down and talk about it, we talk about 
all these problems. I guess the fear I have is we may have a 
big government solution to this, and that is let us throw more 
money, let us redo the organization chart, let us do this, but 
in the end, it is not very effective. So I would be glad to 
work with the Chairman and the Ranking Member on that.
    Chairman Collins. Thank you. Senator Bennett.

              OPENING STATEMENT OF SENATOR BENNETT

    Senator Bennett. Thank you very much.
    Secretary Chertoff, is the Coast Guard part of the 
Department of Homeland Security?
    Secretary Chertoff. Yes.
    Senator Bennett. So why do we hear that the Department has 
failed?
    Secretary Chertoff. I have tried to be careful to say that 
there were some real successes and also some of the other 
components, like TSA, real successes. There were some real 
successes in FEMA, and there were some failures, as well.
    Senator Bennett. I think that is an important point to make 
because what we need to do in this hearing, or what I think we 
are trying to do in this hearing, is look at three separate 
areas: The past, we want to know what happened; and the 
present, what is going on with the trailers, etc.; and then, 
ultimately, the future. Where are we going to try to solve the 
problems of the Department?
    You remembered correctly my warning that the Department was 
not going to function properly for at least 5 years. This has 
nothing whatever to do with who is appointed to try to get it 
to work. This has everything to do with the challenge of 
creating it. This is the largest reorganization of the 
Executive Branch since the creation of the Department of 
Defense, and unfortunately, the first Secretary of Defense 
committed suicide. Secretary Ridge got through that without 
that particular result. But the Department of Defense never 
really functioned for about 20 years after it was formed, and 
to Senator Pryor's point, it took the Goldwater-Nichols Act to 
ultimately fix that, but that came after decades of experience 
with the cultural clashes that occurred.
    The Coast Guard handled its transfer into the Department of 
Homeland Security virtually without a ripple, and that is a 
tribute to the Department and it is a tribute to the Coast 
Guard.
    FEMA obviously did not, and I was interested in your 
reaction to the testimony we had on Friday. To repeat, I found 
it staggering that an Under Secretary--you have described him 
as the third most important figure in the Department in terms 
of the pecking order--would testify that he deliberately would 
not call you and discuss things with you because he considered 
it ``a waste of my time.'' I heard your answer to the Chairman, 
but it is staggering to me that a subordinate could be that 
insubordinate and hide it from you to the degree that he 
apparently did.
    I have looked over the excerpts from the VTC transcripts, 
not only your questions, and you gave us these excerpts to 
demonstrate your questions, but his answers, and there isn't a 
hint in his answers of the attitude that we saw on Friday. You 
read those answers and you think, this is the most open, 
cooperative, supportive subordinate you could possibly have, 
and yet he sat at that table and told us that it would be a 
waste of his time to have a conversation with you.
    That is an incredible demonstration of dysfunction, and the 
difference between FEMA's performance and the Coast Guard's 
performance is a demonstration of that kind of refusal to 
integrate which the Coast Guard commandant, maybe because he is 
used to chain of command and following orders, obviously didn't 
have any problems with. But that is the past, and we go 
forward.
    I must say, I find your description of what you did on the 
day when you were supposedly off in Atlanta enjoying yourself 
to be properly--I find it to be an accurate description of a 
very engaged official, and you do have all of the modern 
communications and just because you are physically in Atlanta 
doesn't mean, as it would have meant 10 years ago, that you had 
no connection with what was going on. So I find that reassuring 
and appreciate and thank you for that.
    As to the present, you are dealing with these issues and 
you are aware of them. Let us spend a little time talking about 
the future.
    I still have confidence in your abilities to manage this 
Department, and given the baptism by fire, if you will, through 
which you have gone in the time since Katrina, there is 
probably not another official on the planet better prepared to 
understand the challenges and the enormity of the challenges 
than you are. Look into the future, although 5 years is 
running, if indeed that is the figure we are going to take, and 
tell us what kind not only of FEMA you would like to create, 
but what kind of Department of Homeland Security you would like 
to leave behind as your legacy, the contribution you want to 
make in this part of your stewardship that you could say, I 
left the Department no longer dysfunctional and properly put 
together.
    Secretary Chertoff. Now, Senator, I have thought about that 
since before I took this job. The short answer is I would like 
to leave it one Department. I think your description of what 
happened to the Department of Defense is something I am very 
aware of, and we actually looked to what happened there to try 
to accelerate that sense of jointness, that sense of unity that 
you need to make one Department.
    Part of it is we have got to finish the process of building 
integrated operations centers, getting a single IT structure, 
and we are doing all that now. But a second piece of it is we 
need to build a common culture, promoting joint assignments, 
promoting people moving from one component to another, and 
promoting a culture of preparedness.
    I was concerned when I came into the Department that the 
hardest part of what we do is planning and thinking through 
what do you do when you face contingencies, and that is still a 
challenge we have ahead of us, ranging from everything from 
terrorism to natural hazards.
    Senator Bennett. By the way, I assume you reject Mr. 
Brown's statement that you are so focused on terrorism, you 
think natural disasters don't matter.
    Secretary Chertoff. Not only do I reject it, but I rejected 
it explicitly in a speech, at which Mr. Brown was present, when 
I rolled out my second stage review, and I rejected it again 
when we had the first time ever joint summit with emergency 
managers and homeland security advisors, at which Mr. Brown was 
present, and I reject it because, first of all, there is going 
to be a lot of common requirements that are going to apply 
whether you are dealing with evacuation because of a flood or a 
hurricane or evacuation because of some chemical explosion 
caused by terrorists.
    Second, things are not going to come labeled. We are not 
going to necessarily know, is this a terrorist attack? A levee 
could be breached because of a natural problem or it could be 
breached because of a terrorist problem.
    The last thing we need to do is to create a new stovepipe 
where people are competing about this.
    Senator Bennett. I apologize for interrupting you, but I 
wanted to get that point and go back to your overall----
    Secretary Chertoff. I think that a big part of this is 
going to be building a culture of preparedness and planning 
where we really integrate our planning and our preparedness 
with our state and local partners, and that means really 
getting into specifics in a way that I don't know we always 
have in the past and asking the hard questions like we are in 
the process of doing now. What is your evacuation plan? What 
are you going to do if the bus drivers don't show up to drive 
the buses out? These are the kinds of hard questions we can 
only answer if we really put the resources and the effort into 
preparedness that we are doing thanks to this Congress' 
appropriation for preparedness this year and what we are going 
to do going forward.
    At the end of the day, I would like to feel that in terms 
of the spectrum of prevention, protection, and response, this 
Department is all hands on every single one of those things, 
and while we are always going to have challenges, I mean, you 
are never going to have a natural catastrophe that is anything 
but difficult and ugly, I would like to do the best humanly 
possible to have us in a position to spare people's suffering 
and pain during those kinds of catastrophes.
    Senator Bennett. Thank you. I wish you well.
    Secretary Chertoff. Thank you.
    Chairman Collins. Thank you. Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Madam Chairman, and welcome to 
you, Secretary Chertoff.
    You have already mentioned to us in your statement that the 
breaches in the levees caught you by surprise. You only 
referred to the breach in the levees and not to the size of the 
storm. It was the fact that the levees broke that you were 
referring to the week in question when you said you were caught 
by surprise, is that a fair statement?
    Secretary Chertoff. It is fair with just this one 
additional fact. I would not have been surprised on Monday 
morning to hear about levee breaches. What surprised me is my 
going home Friday night, 12 hours after the storm had passed, 
or 10 hours after the storm had passed, having seen a report 
that said there were no significant breaches, and then to find 
out the next morning that there had been a breach. That is what 
surprised me.
    Senator Levin. You mean Monday night instead of Friday 
night?
    Secretary Chertoff. I am sorry, yes, Monday night instead 
of Friday.
    Senator Levin. Now, the President said on Thursday, 
September 1, on Good Morning America, ``I don't think anyone 
anticipated the breach of the levees.'' That is not accurate, 
is it?
    Secretary Chertoff. My understanding is he meant what I 
meant, which is the perception was that although it would not 
have been a surprise on Monday morning to learn about breaches 
of levees, based on what, speaking for myself, I knew Monday 
evening, thinking it was over, I was surprised on Tuesday 
morning.
    Senator Levin. There had been a long list of studies that 
anticipated breach of the levees, is that true?
    Secretary Chertoff. Breach and over-topping, yes.
    Senator Levin. Let us just talk breach. The Corps of 
Engineers as early as 1994 talked about a possibility of 
breach. In 2000, the Corps of Engineers talked about the 
possibility of breach. Your own Assessment Center talked about 
the possibility of breach of the levees, is that not accurate?
    Secretary Chertoff. I don't know all of the reports, but I 
know there has certainly been a lot of discussion over the 
years of that as a possibility.
    Senator Levin. Well, let me read to you, then, your own 
Assessment Center report on Sunday prior to landfall. It said 
the following, that New Orleans is surrounded by a 130-mile 
system of levees to protect the urban area. It lies six feet 
below sea level from surrounding waters. The potential for 
severe storm surge to overwhelm Lake Pontchartrain levees is 
the greatest concern for New Orleans. Any storm rated Category 
4 or greater will likely lead to severe flooding and/or levee 
breaching. This was immediately prior to landfall.
    Now, did you receive that report? You were supposed to 
receive it in your Monday morning briefing.
    Secretary Chertoff. I don't remember the specific report, 
but again, I want to make it clear, I have no doubt that I knew 
that as the storm approached, one possible outcome was levee 
breaching, and I have never heard anybody suggest that they 
didn't realize that was a possibility.
    Senator Levin. Well, no, you suggested it on television----
    Secretary Chertoff. No, what I said was given my--what I 
had been told had happened on Monday, which is that the worst 
had not occurred, I did not anticipate that I would get a 
report on Tuesday morning that said, oh, you know what? The 
worst did occur.
    Senator Levin. The way you talked later on that week, you 
said, ``I will tell you that really that perfect storm of 
combination of catastrophes exceeded the foresight of the 
planners and maybe anybody's foresight.'' But it didn't escape 
the foresight of planners.
    Secretary Chertoff. Well----
    Senator Levin. The planners said, and you now acknowledge, 
that you were aware of the fact that the levees could be 
breached.
    Secretary Chertoff. I certainly was aware of it. I think 
what I was referring to was the particular combination of 
events.
    Senator Levin. It didn't come across that way to me, but--
--
    Secretary Chertoff. I am quite sure I have said things in 
the press that don't come across the way I intended them to, 
but I am telling you what I thought at the time.
    Senator Levin. When you went to bed on Monday night, not 
knowing that the levees had been breached, this is in the face 
of all kinds of communications to your agency saying that the 
levees had been breached on Monday. There was an 11:13 a.m. e-
mail to your Director of Response, is it Michael Lowder, saying 
flooding is significant throughout the region and the levee in 
New Orleans has reportedly been breached, sending six to eight 
feet of water throughout the Ninth Ward area of the city. That 
is 11:13 a.m. on Monday.
    At 11:51 a.m. on Monday, New Orleans Fire Department is 
reporting a 20-foot-wide breach on the Lake Pontchartrain-side 
levee. That was an e-mail from FEMA's Michael Heath to FEMA's 
Deputy Director of Response, Michael Lowder. You have got later 
reports on Monday saying the same thing.
    We just have received, belatedly, may I say, a Coast Guard 
report. The Committee has been frustrated in getting a number 
of documents. That was reported a couple of days ago by the 
Government Accountability Office, I believe, reported 
difficulty in getting documents. The Committee just received 
this document from--this is a Coast Guard e-mail going directly 
into your ops center, your HSOC at the Department of Homeland 
Security, and this is dated Monday, 1:51 p.m. A levee in New 
Orleans has been breached, sending three to eight feet of water 
into the Ninth Ward area of the city.
    Now, that is not stovepiping. That goes directly into your 
operation, and yet 10 hours later, you go to bed believing that 
there had been no breach because you received a report at 6 
p.m., apparently, saying that there had been no breach of the 
levees yet at 6 p.m. Is that so far accurate?
    Secretary Chertoff. Well, that is not the only reason 
because I had been asking repeatedly and getting repeatedly 
oral reports about what was going on, not from my ops center 
people, and had not gotten a report that there was a 
significant breach of the levees.
    Senator Levin. Well, your ops center was notified a number 
of times during the day that there was a significant breach of 
the levees, including from the Coast Guard. I don't know if 
this document is part of the record yet, but if it isn't, I 
would ask that it be made part of the record, Madam 
Chairman.\1\
---------------------------------------------------------------------------
    \1\ The information submitted by Senator Levin appears in the 
Appendix on page 162.
---------------------------------------------------------------------------
    Chairman Collins. Without objection.
    Senator Levin. A levee in New Orleans--this is 1:51 in the 
afternoon--a levee in New Orleans has been breached, sending 
three to eight feet of water into the Ninth Ward area of the 
city. Now, something is not working well in your shop if you 
are not notified of that. You have all these communications 
systems right at your hand. You indicated you can be contacted 
within seconds. They are with you all the time. And yet you go 
to bed 10 hours later without apparently being aware of the 
most significant event that had happened in New Orleans 
following landfall, which is the breach of those levees. Who 
was responsible for not getting you that information from your 
ops center to you? Have you found out?
    Secretary Chertoff. Let me, first of all, be fair in saying 
that--and here again, and I have spoken to General Broderick 
about this, he has testified before you because I know he was 
dismayed at the fact that he didn't know and I didn't know. 
First of all, some of what you have read, I think, are internal 
e-mail communications among FEMA people, which as I have said 
previously is not the way you organize and communicate 
information.
    You have a Coast Guard document. I haven't seen it, or I 
don't know if I have seen it. There was information flowing in, 
as I think Mr. Broderick testified and certainly as he told me, 
that was imperfect, conflicting, indefinite, and he made 
judgments about when things were--he was comfortable enough 
with the facts to pass them up to the leadership of the 
Department.
    By way of example, I think at 12:09 p.m., I see an e-mail, 
which I didn't see at the time, where Michael Brown says to 
Michael Lowder that he is being told that what was described as 
a breach is water over, not a breach. So there is that issue--
--
    Senator Levin. My question is, have you made an effort to 
discover how it was that these messages----
    Secretary Chertoff. I know how it is.
    Senator Levin. This was known early Monday morning, right? 
We have testimony saying that the helicopter, the Coast Guard 
man flew over, saw the breach in the morning, confirmed it in 
the evening, took the pictures which I believe Senator Dayton 
showed you. Those pictures all were there before you went to 
bed.
    Secretary Chertoff. I agree that by late Monday, or by the 
time those pictures were taken----
    Senator Levin. How do these screw-ups happen? I mean, have 
you looked into them?
    Secretary Chertoff. Yes. The answer is, I have looked into 
them----
    Senator Levin. How did they happen?
    Secretary Chertoff. I think it is a combination. Some of 
these messages never got to the operations center. Some of them 
did, but there were conflicting stories, so there was an effort 
made to ascertain what the truth was. Was there really a 
breach? How significant was it?
    Senator Levin. Should there have been that effort made?
    Secretary Chertoff. Well, there was an effort and it should 
have been made. The problem is it wasn't made--the effort did 
not proceed the way it should have proceeded. Let me try to put 
it this way. I give a lot of credit to Marty Bahamonde for 
getting on a Coast Guard helicopter to take those pictures, but 
he never should have had to do it. We should have had the 
capability on Monday to put on the ground not a public affairs 
officer, but trained officers who would go out and actually do 
a survey and would have communicated that back to us.
    Senator Levin. I agree with that, but there were messages 
that came into your particular agency----
    Secretary Chertoff. Right.
    Senator Levin [continuing]. Saying that there was a breach 
all day Monday that never got to you, apparently, by the time 
you went to bed. It is a critical issue, the breach of those 
levees. That is where the flooding----
    Secretary Chertoff. Not only that, but----
    Senator Levin. Because I am out of time, has anybody been 
held responsible, accountable for failing to do what they 
should have done in terms of either getting the data together, 
getting it to you, notifying you with that telephone that is 
right at your elbow? Is there any accountability except your 
coming before us and saying, I accept responsibility?
    Secretary Chertoff. Yes, and let me make two points. It was 
not an issue of messages not being conveyed. The report at 6 
p.m. affirmatively told me that reports were that levees hadn't 
been breached, so there was--at that point, the judgment had 
been made there was not enough information. I have gone over 
this in quite painful detail with General Broderick. I have a 
lot of respect for him, and I trust him implicitly. I know he 
was unhappy about that. I know he has made adjustments in the 
operations center to deal with that. I have made it clear to 
him that while I respect and understand his desire to make sure 
the information is sufficiently grounded before he gets me, I 
would rather him reach me earlier with less perfect 
information.
    I have been through this fog of war stuff in September 11, 
and I vividly remember it there, so the answer is I have held 
people accountable, and I believe we have a process now that 
will be better, but I don't underestimate the challenge of 
information flow.
    Senator Levin. Thank you, Madam Chairman.
    Chairman Collins. Senator Chafee.

              OPENING STATEMENT OF SENATOR CHAFEE

    Senator Chafee. Thank you, Madam Chairman, and welcome, 
Secretary.
    There has been a lot of criticism of what occurred in New 
Orleans and the Gulf Coast, and one of those is your attendance 
of the avian flu conference on Tuesday. However, I do think 
avian flu is a serious issue, and as we do look ahead, how are 
we prepared for that possibility?
    Secretary Chertoff. I think that actually is a challenge 
which is more difficult because unlike hurricanes, which we 
have done before, I don't think anybody in living memory has 
dealt with something as potentially as serious as that, 
although it may never come to pass. The answer is that the 
President has put an enormous amount of his personal attention 
on this. We have a national strategy. We are working on a 
national implementation plan and Department plans.
    One of the things we have tried very hard to do, which is a 
lesson of Katrina, is engage early with State and local public 
health and homeland security officials because the Federal 
Government is not going to be able to do this by itself. The 
ground responsibility for managing a public health emergency 
and dealing with the collateral consequences will lie with 
State and local government, and they have got to start thinking 
about that.
    You know, we can deliver, for example, things out of the 
National Stockpile to an airport, but they have got to get them 
distributed to people. So I don't want to make a bad pun, but I 
would say we are working feverishly to get this thing done 
because we don't know if and when we are going to need it.
    Senator Chafee. Are there any specifics you can share with 
the American public that they should be undertaking?
    Secretary Chertoff. First of all, I want to make it very 
clear that it is important people not be alarmed. We talk 
generally about preparedness. We have a website, ready.gov, 
which deals with preparedness, types of measures you can make 
for preparedness. I think HHS has a website up. A lot of what 
the public will be able to do will involve sanitary 
precautions, making sure you avoid things which allow 
transmission of infectious material.
    I have personally spoken to the CEOs of a number of very 
large corporations, and I have said to them, based on my 
experience in Katrina, which is now certainly had a lot of 
educative effect on me, that they need to start thinking about 
who their essential employees are, how they will keep their 
operations running if we have something. So I think what people 
can do is they can look to information that we are going to be 
putting out, look to their local officials. If they have 
business responsibilities, work with their companies to have 
contingency plans about continuity of operations and who is 
essential.
    Senator Chafee. Thank you. That is all I have.
    Chairman Collins. Thank you. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Madam Collins. I want 
to commend you and the Ranking Member, Senator Lieberman, once 
again for your bipartisan diligence and the way in which you 
have conducted this investigation. In my humble opinion, you 
have served the Senate and our country well.
    Chairman Collins. Thank you.
    Senator Akaka. I also want to acknowledge, Madam Chairman 
and Ranking Member Lieberman, the hard work of your staffs who 
have reviewed--maybe this is an understatement--hundreds of 
thousands of documents and conducted hundreds of interviews. I 
hope the country will be better prepared because of the efforts 
of the Committee and the Committee staff.
    I, along with my colleagues, will be considering what steps 
need to be taken to ensure that a future disaster does not 
result in the tragedies that befell the Gulf Coast. Mr. 
Secretary, many, including yourself, have accepted personal 
responsibility for what went wrong, but with due respect, I 
believe those who have lost loved ones, homes, and jobs may 
need more accountability than has been shown up to this point. 
You have a responsibility to convince the American people that 
you understand what went wrong with DHS's response and to 
convince us that you have a clear strategy to ensure these 
mistakes will not be made again.
    Your statement outlines how large and catastrophic 
Hurricane Katrina was, but you were not as clear in explaining 
what went wrong. The issue is not the size of the disaster, but 
the quality of the response. Without knowing what really 
happened, the American people may not be convinced that the 
solutions you are proposing are the correct ones.
    Mr. Secretary, I want to follow up on a response you gave 
to Senator Lieberman. You said that if it had been a biological 
terrorist attack, you would have stood up the IIMG, the 
Interagency Incident Management Group, right away instead of 
waiting. Shouldn't the Department be taking an all-hazards 
approach?
    Secretary Chertoff. Absolutely, and I have said that 
repeatedly, but my point was this. The experts in the 
government in hurricanes were at FEMA. I mean, if there is 
anything that FEMA does and has done over the last 20 years, it 
has been hurricanes. Even Michael Brown had been through four 
prior hurricanes the previous year. So in terms of where I 
would look to for advice and expertise on what needs to be done 
to get ready to prepare for a hurricane, I couldn't have 
collected a better group of people than the people who were 
already sitting around the table at FEMA headquarters.
    My point was that if we were dealing with a catastrophe 
that they hadn't been accustomed to dealing with because they 
hadn't faced it before, then I would have looked to bring 
experts in with the relevant disciplines, like, for example, 
medical people because there the way you deal with a response 
can be very influenced by the medical issues.
    Senator Akaka. Mr. Secretary, I have asked questions in 
past hearings about the PFO and how it came about. The National 
Response Plan states that once an individual is named Principal 
Federal Officer, he or she ``must relinquish the conduct of all 
normal duties and functions.'' Last week, I asked former Deputy 
Director of FEMA Patrick Rhode what impact this provision had 
on his position. He responded that he was unaware of the 
provision and therefore was unaware that under the NRP, he 
became Acting FEMA Director while Michael Brown was PFO. Were 
you aware of this provision in the NRP when you named Mr. Brown 
to be PFO, and if so, did you communicate that information to 
Mr. Rhode?
    Secretary Chertoff. As I read this, it doesn't actually 
require the PFO to resign or suspend. It requires him to spend 
full time being the PFO. I will tell you that, in fact, not 
only Michael Brown, but everybody at FEMA during this hurricane 
was doing nothing but working on Hurricane Katrina. So in 
practice, everybody was focused 100 percent on Hurricane 
Katrina, and FEMA was dealing with nothing but Hurricane 
Katrina.
    I want to make one point clear, though, that in terms of 
who is running things back in headquarters, and I respect Mr. 
Rhode, he is very intelligent, and he worked hard, but the 
person who was the Chief Operating Officer was a very 
experienced veteran of FEMA of, I don't know how many years, 
but many years with a lot of emergency background experience, 
and he and the team of people around him were the people that 
we really looked to in terms of the actual management of the 
agency while Mr. Brown was down in the Gulf.
    Senator Akaka. Would you be able to give the name of that 
person?
    Secretary Chertoff. It is Ken Burris; he was the Chief 
Operating Officer.
    Senator Akaka. Thank you very much, and I thank you for 
that specific response.
    Making sure disaster victims have food, water, and ice is 
one of FEMA's core responsibilities and probably one that 
average Americans most closely associate with FEMA. Given the 
importance of this mission, why was the FEMA logistics system 
``not up to the task of handling a truly catastrophic event,'' 
as you have stated in your testimony?
    Secretary Chertoff. Because although they ordered a lot of 
food, water, and ice, and for initial staging, the way they 
obtain it, and this is my understanding, is they don't contract 
directly but they contract through, I think, the Army Corps of 
Engineers. I don't think those contracts, at least as far as I 
know, require that the actual shipper provide real-time 
information about the location of shipments. I know from 
personal experience, just as does everybody in this room, that 
if you--I am not going to single out a particular company, but 
there are a lot of companies you can send a package in and they 
are going to tell you by the minute where that package is.
    So I guess my--it seems to me at a minimum what we need to 
do by June 1 is in the contract require that you put on the 
trucks the kind of communications that allows you to track 
where a truck is at any particular point in time, and that is 
something which just requires better contracting, better 
procurement.
    Senator Akaka. Can you again be specific? Name who was 
responsible for ensuring that this was done right.
    Secretary Chertoff. I was only 6 months in the Department, 
I don't know who originally set up the arrangement to do 
contracting through other agencies. The business model of FEMA, 
which has existed for a while, which involves contracting with 
other people, because you have a very small agency, is not, I 
think, a necessarily good business model, and a lot of what we 
have suggested in the last week--and I want to be honest, we 
have been working on this for a few months. I announced it on 
Monday, but we have been looking at this since November and 
December of last year, is designed to alter that business model 
so that we do the kinds of things that I think people logically 
expect us to be able to do.
    Senator Akaka. One of the problems that seems to appear is 
that DHS does not really have a point of contact in these 
disaster areas. Having a permanent consolidated DHS regional 
office in the Gulf Coast may have prevented some of the 
catastrophic response previous to Hurricane Katrina by 
establishing a strong preexisting relationship between DHS and 
State and local officials. Such an office would also have 
provided one DHS point of contact. A consolidated DHS presence 
is critical in Hawaii because we do not have neighboring states 
that can provide assistance during a catastrophic incident. Our 
only outside help would have to come from the Federal 
Government. The people of Hawaii want to know whether you will 
implement a regional office structure in DHS as required by the 
Homeland Security Act of 2002.
    Secretary Chertoff. We do, as I have indicated, although 
the exact details aren't--I don't think they are fully formed, 
we do look to have a regional DHS structure focused on the 
issue of preparedness, linked up with the military and linked 
up with the FEMA regions to have exactly what you are 
describing, a continuity of relationship and preparedness with 
the States within a region.
    Senator Akaka. The reason I asked that specifically about 
Hawaii is that NORTHCOM is working with you, but NORTHCOM does 
not include Hawaii. A regional office there would certainly 
serve Hawaii as well as the Pacific and should be considered 
for a regional office, and that is my question to you.
    Secretary Chertoff. I didn't realize that was true. As we 
roll out the details of what we are doing in the next couple of 
months, I will certainly talk to Admiral Keating because it is 
critical that we be aligned in how we do these things.
    Senator Akaka. I thank you so much for your responses. As 
you know, this Committee wants to learn all we can about the 
mistakes and try to work on solutions with you on helping our 
country.
    Secretary Chertoff. I look forward to that. We have a lot 
of work to do.
    Senator Akaka. Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Lautenberg.

            OPENING STATEMENT OF SENATOR LAUTENBERG

    Senator Lautenberg. Thank you. Mr. Secretary, we have known 
each other some time, and I had been a big booster for--
boaster, as well--for you when you took on this important 
assignment. While there are questions asked now about what 
happened, when, where, the fact of the matter is that the 
situation was so unique, not to make any excuses and not to 
relieve anybody of blame, but when Michael Brown was here, I 
suggested that maybe he was the designated scapegoat, and I 
think what happens is there are probably several designated 
scapegoats because the fingers are pointing all over. Some of 
it is productive and some of it, I think, is not really 
significant.
    Starting from the present situation back, our visitor here 
who couldn't stand the frustration spoke aloud, respectfully, 
about wanting to see something happen. In the last 2 weeks, we 
had several hundred--in the last 10 days, several hundred 
people from New Orleans come in here and crowding the room, SD-
G50, that we have in this building, it is our largest meeting 
room, just asking for some relief, some help. They can't 
understand why approaching the sixth month since this terrible 
disaster hit, why it is that we still can't find our way out of 
the morass and get things done, whether it is the trailers or 
it is who did what to whom. I think the gentleman was correct 
in raising it, maybe out of sorts with our meetings here, but 
that is all right. We forgive him for that. We understand what 
he wanted to say and what he wanted to do, and I would like to 
see us get it done.
    But starting from a point in time when the President of the 
United States on Friday after the disaster struck on Monday, he 
said that Brown, in his familiar vernacular now, was doing a 
heck of a job. ``Brownie, you have done a heck of a job.'' Now, 
what possessed--what can you imagine gave the President the 
opportunity to do that? He must have had some knowledge of 
something, and I am not defending Brown. I am not going to 
defend anybody here because when this tragedy hit, there isn't 
anything of this kind of magnitude that doesn't end up 
including mistakes, accidents, etc. It doesn't excuse it. We 
have got to be better at it.
    What, do you think, possessed the President to give that 
pat on the back? I mean, he had to be familiar with what was 
happening. It was 5 days later. It wasn't like it happened 2 
hours ago and the guy jumps in the water to rescue somebody.
    Secretary Chertoff. I don't want to speak for the 
President, but I can just tell you in general in dealing with 
these kinds of circumstances, I think whatever, speaking for 
myself, I viewed or was beginning to view as Michael Brown's 
shortcomings, everybody was very tired, working with very 
little sleep, away from their families, and it is easily 
understandable to me that in a larger--for people, the message 
you want to send is a message of encouragement and recognition 
of the fact that, whether people are being successful or not, 
they are certainly operating under difficult circumstances.
    So I didn't regard the comment as a real judgment, and I 
didn't view it as limiting me in my ability to remove Mr. 
Brown, which is what I did over the weekend. I viewed it as a 
courteous effort to make--kind of buck the troops up.
    Senator Lautenberg. Well, the thing was so replete with 
mistakes made accidentally or intentionally or otherwise. This 
wasn't an ordinary citizen. This was the President of the 
United States saying you have done a good job, a pat on the 
back to ameliorate a disaster, it didn't seem right and thereby 
forces me to ask the question, well, could Brown have been as 
bad as everybody says or is he, again, the designated 
scapegoat?
    I think it is critical that the happenings of August 29, 
2005, be reviewed by an independent commission. There is too 
much fodder here for the political functioning which takes 
place. People are interested in the legitimate questions that 
are raised. Though almost everything has been said, everybody 
hasn't said it, and that is standard around here.
    Were you aware of the transportation decisions on, let us 
say, Amtrak, the decision on Amtrak? Amtrak had a train sitting 
there that could have taken 600 people out. Do you know why it 
didn't?
    Secretary Chertoff. I don't. I guess they pulled out on 
Saturday. I became aware of that, and I don't know if I ever 
really learned the reason why they did that. I don't know 
whether it was because people didn't know to show up or whether 
Amtrak pulled back too quickly. I know I actually worked very 
hard with people at DHS to get Amtrak back in during the middle 
of the week after landfall so we could expedite the departures, 
but I can't tell you definitively why that train moved out on 
Saturday with empty spaces.
    Senator Lautenberg. Well, I heard from Secretary Mineta 
that the train was there and nobody would get on. I think they 
wound up with less than 100 people. And once again, somebody is 
pointing fingers at someone else.
    The statement that you made earlier may have been 
confusing--it was for me--about when you learned of the size of 
this disaster. When would you say your first reliable awareness 
came?
    Secretary Chertoff. Well, I knew about the hurricane when 
the hurricane hit, and obviously even a Category 3, almost 
Category 4, hurricane hitting is in and of itself a huge 
disaster. I think as it relates to this substantial breach of 
the levees, I learned about that on Tuesday morning at--between 
6 and 7 a.m., approximately 7 a.m. when I got the report.
    Senator Lautenberg. OK because there were wires--that is 
old fashioned--e-mails sent out, one of them August 29 that 
Senator Levin talked about. This one was sent out at 9 a.m., 
Monday, August 29, from a man named Dabdoub, Louis Dabdoub, to 
Michael Waters, other people at DHS, and it says, getting bad, 
major flooding in some parts of the city, people calling in for 
rescue, trapped in attics, means the water is 10 feet high 
there already. Trees blowing down. Flooding is worsening every 
minute. Infrastructure issues are rapidly being taxed and most 
of the area has lost electricity.\1\ This is Monday morning, 9 
in the morning, and you didn't learn about this, Mr. Secretary, 
until Tuesday morning?
---------------------------------------------------------------------------
    \1\ Exhibit A appears in the Appendix on page 173.
---------------------------------------------------------------------------
    Secretary Chertoff. Well, let me separate flooding, which, 
you know, from over-topping in a hurricane and also a 
tremendous amount of rain, that I don't think anybody was in 
doubt was happening on Monday. I think the critical issue was 
the breach of the levee because the breach of the levee is what 
amplifies the danger from the hurricane. This particular 
communication didn't reach me. It doesn't look like it is 
directed to DHS. One of the things I have said is the idea that 
what you do is send e-mails around FEMA without making sure 
that copies are getting to the operations center is, I think, 
part of the core of the reason I didn't know these things.
    The second issue, of course, is you get a report from one 
person. You don't know what the basis of the report is. I 
vividly remember, because I was on duty on September 11, 
unbelievable rumors that floated around on September 11 about 
stuff that was going on, bombs in Washington, and all that 
stuff had to be run down before you communicated with higher-
ups. So there is always a tension between getting preliminary 
reports and figuring out what the truth is, but there is no 
doubt that part of the problem here was a disconnection between 
the FEMA channel of communication and the DHS channel of 
communication.
    Senator Lautenberg. Well, if I may help, it was sent to 
Michael Waters, Headquarters, DHS, Mark Milicich, Headquarters, 
DHS, John McLaren, DHS. This was a general distribution to 
people at the top of DHS. Now, was there some kind of a thing 
that says, don't disturb the Secretary or that these things 
didn't come to you? One of the complaints was that Brown didn't 
communicate with your office, he communicated directly, so he 
said, with the White House. Even bouncing off that wall would 
be to you.
    I find it, to use your word, astonishing that you didn't 
really learn about the severity because whether it was the 
breach of the levees or whether it was just water coming in 
from wherever, people were standing with luggage on their 
heads, kids on their heads, and trying to save themselves from 
drowning. So unless there is some protocol that says, well, you 
don't disturb the Secretary until X-point, Y-point, or whatever 
it is----
    Secretary Chertoff. I would have to say quite the contrary, 
and I was not at all bashful about disturbing people in the 
operations center about what was going on. I think the 
challenge they had was is the report based on a reliable 
observation? Is it, you know, what are the actual facts on the 
ground? I think General Broderick explained it. I have been 
through the circumstance of hearing a lot of reports that come 
in that turn out to be untrue on numerous occasions in every 
element of my job in government.
    I can tell you emphatically the policy is the exact 
opposite of don't disturb the Secretary. The criticism is most 
often, in general, why didn't you call me earlier? My general 
rule is if I have seen it on TV and I haven't heard about it 
first, I am going to be annoyed, not just with respect to this 
but with respect to a whole host of things. I have made that 
clear, and frankly, we have gotten better. I get an earlier 
trigger on things, which is good.
    Senator Lautenberg. Madam Chairman, there are several more 
questions, and rather than hold everybody up, I would like the 
Secretary to confirm that any questions that we submit in 
writing will be responded to, and I urge you, Mr. Secretary, to 
see a report that in 1996 was printed in the Atlanta 
Constitution newspaper about what happened when James Lee Witt 
was responsible for FEMA and that had been noted as a dumping 
ground for political figures. By 1996, and he came in 1992, 
that it was one of the best performing agencies for that kind 
of disaster situation and that James Lee Witt went to the 
trouble to get it fixed and get it operating properly.
    I urge, Mr. Secretary, that we get on with trying to solve 
the immediate problem. People are still displaced, whether it 
is the trailers that are now sinking in the mud or evacuation 
or distribution of funds that are essential, that we get on 
with that because the delay only compounds the mistakes that 
were made in the first place. Thank you very much, Madam 
Chairman.
    Chairman Collins. Thank you.
    Mr. Secretary, I realize that you are expected over at the 
House side for a hearing before the Appropriations Committee. 
All of us have many more questions that if you were able to 
stay, we would pose to you. But since you do have the 
obligation on the House side, we are not going to do a second 
round.
    We will, as Senator Lautenberg asked, expect you to respond 
to additional questions for the record, and because our next 
stage is going to be to compile a report, I would ask that 
questions from members be submitted by close of business 
tomorrow night and that you respond to us by close of business 
on February 28 so that we can proceed. Do I have your 
commitment on that?
    Secretary Chertoff. Yes, and I appreciate the work the 
Committee has done, and I appreciate the opportunity to appear. 
I think that we have a lot of work to do together. I don't want 
to minimize the amount that has to be done. There is a lot of 
preparation, but I think out of this, the redeeming value will 
be we will have been force-fed some very important lessons.
    Chairman Collins. That is absolutely true, and by learning 
those lessons, our goal is to improve our emergency 
preparedness for the next disaster, whether it is a man-made 
disaster, such as a terrorist attack, or another hurricane or 
natural disaster, and that has been our goal, as well.
    I am going to submit my full closing statement for the 
record in the interest of time, but I do want to take this 
opportunity to recognize the very hard work of the Committee 
staff under the leadership on this side of the aisle of Michael 
Bopp and David Flanagan. They have reviewed some 820,000 pages 
of documents. We have done interviews with more than 270 
witnesses. We have held 20 hearings. We probably will only have 
one or two more hearings. This concludes the major hearings, 
and we will now begin a report.
    I also want to thank Senator Lieberman for being such a 
terrific partner. Every interview, every hearing has had good 
participation from both sides of the aisle, such as our friend, 
Senator Akaka, who has worked very hard on this, and it has 
been the kind of bipartisan oversight investigation that this 
Committee has the proud heritage of accomplishing.
    We are going to proceed with our report with findings and 
recommendations. I want to thank you and the members of your 
Department for your cooperation in the investigation.
    [The prepared statement of Chairman Collins follows:]

                 PREPARED STATEMENT OF SENATOR COLLINS

    I would like to thank Secretary Chertoff for his testimony. The 
topics discussed in today's hearing go to the heart of the shortcomings 
in the response to Hurricane Katrina. But lest we forget, the next 
hurricane season is right around the corner and, of course, a terrorist 
attack could happen any place, at any time. Unfortunately, I am not 
confident that we as a Nation are prepared to respond to either threat.
    This Committee's investigation revealed systemic problems hindered 
the Department's response to Hurricane Katrina. The Committee's report 
will detail its findings and offer recommendations to fix problems--
those problems must be fixed, and fixed promptly.
    Perhaps the problem that most concerns me is the report of apparent 
infighting and turf battles within DHS. The mottto of the Department is 
``One Team. One Fight.'' But in direct defiance of that motto, the 
situation this Committee has unveiled looks more like a free for all at 
the Department. Be assured that this Committee will aggressively 
oversee your efforts to better integrate the various components into 
one team.
    I look forward to working with you to implement reforms to ensure 
that as a Nation we are better prepared and will respond more 
effectively to the next catastrophic event.
    The hearing record will be held open until close of business 
tomorrow, February 16, for the submission of questions or other 
materials.

    Chairman Collins. Senator Lieberman.
    Senator Lieberman. Thanks very much, Madam Chairman. Let me 
join you, first, in thanking our staff, which has done an 
extraordinary job, and let me thank you personally because you, 
as Chairman, have really set the tone. So much around Congress 
these days descends almost immediately into partisanship. This 
is not a partisan inquiry, and it should not be. We all have an 
interest in improving the Federal Government's performance the 
next time disaster strikes, and that is the tone that you have 
set. It has been a pleasure, as always, to work with you. It 
always seems so foolish that our staffs go separate ways when 
we all have the same goal, and in this case, our staffs have 
worked together to maximize our realization of that goal.
    Secretary Chertoff, I thank you for your testimony here 
today. You know, I appreciate the fact that, in some sense, in 
response to the questions that I raised in my opening 
statement, you acknowledged your legal responsibility as the 
Nation's primary official in charge of preparation and response 
to disasters and you acknowledged that the preparation for 
Hurricane Katrina was inadequate, you said particularly with 
regard to transportation.
    Of course, I agree with you. I think one of the most 
pathetic moments of our hearing was last week when Mr. Brown 
was in and I asked him why, in response to General Landreneau 
of the Louisiana National Guard who asked him for buses 
desperately to get those people out of the Superdome, out of 
the Convention Center, out of New Orleans, and he said he would 
deliver them, and he didn't deliver them until late Wednesday 
night or Thursday morning, and they went through those 3 days 
of hell that we all saw.
    But unfortunately, there were failures in a lot of other 
areas. I know you cited transportation, maybe because of its 
consequences, and search and rescue and deployment of assets 
and helping special needs people, law and order, medical needs, 
and then finally in communications and situational awareness.
    Personally, I don't like the ``fog of war'' term in this 
regard. Fog of war is a term that comes from Clausewitz. I 
always thought it meant the inability to have what we now call 
situational awareness on a battlefield because so much was 
going on. But this is the 21st Century. Clausewitz was a long 
time ago. We have the most extraordinary technological 
capability, and you should have known.
    I guess what I want to say in response to all of this is 
that you had the capability. It wasn't used well, and it wasn't 
used early enough. I will tell you, I know maybe it is not 
appropriate to do it in public, but I hope you are really 
furious about the fact that your Department let you go to bed 
on Monday night not knowing that the levees were broken, 
notwithstanding a little bit of conflicting evidence, but most 
of the evidence, we have got 15 different communications that 
went direct to your operations center in which we invest 
millions of dollars every year, and somebody should have told 
you much earlier on.
    The Coast Guard, very briefly, was cited, and they were a 
star here. And part of what they did is what we would have 
hoped the whole Department did, and they testified to us that 
is just what they do and they did it on their own. They had no 
authority, no special permission from anybody. They 
prepositioned assets as they listened to the Weather Service on 
Friday, Saturday, and Sunday. When the hurricane struck, they 
were right there that afternoon. And that, I hope, will be the 
model and the standard that you and we will take forward as we 
try to make this better.
    I will say, to end on a note of encouragement, which in 
some ways also is an indictment of the performance of the 
Department and the Federal Government during Katrina, when 
Hurricane Rita was coming, you led exactly the kind of pre-
landfall aggressive effort by the Department and the Federal 
Government that really put us in a position to protect people, 
which is what, looking back, surely should have happened before 
Katrina.
    So thank you for your testimony, and as you said, we have 
got a lot of work to do together.
    Secretary Chertoff. Thank you.
    Chairman Collins. Thank you. This hearing is now adjourned.
    [Whereupon, at 2:08 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


                PREPARED STATEMENT OF SENATOR VOINOVICH

    Chairman Collins and Senator Lieberman, thank you for your tireless 
oversight work investigating the government's response to Hurricane 
Katrina.
    Secretary Chertoff, I appreciate your being with us today.
    It has become clear that there were serious and regrettable 
deficiencies in the response at every level of government during the 
days leading up to and following the unprecedented catastrophe in the 
Gulf Coast.
    My hope is that we can move past the finger pointing to make useful 
adjustments at the Department of Homeland Security. Mr. Secretary, the 
most important thing you can tell us today is that the Department of 
Homeland Security has learned the difficult lessons from this tragedy. 
I would like to be assured that, under your leadership, the Department 
is doing everything it can to address its shortcomings so that in the 
future, DHS and FEMA will be able to effectively assist State and local 
governments in responding to catastrophic events. I hope we can all 
work together in the coming months to identify and implement the 
appropriate modifications to improve our Nation's disaster preparedness 
and response capabilities.
    Thank you.

    [GRAPHIC] [TIFF OMITTED] T7032.001
    
    [GRAPHIC] [TIFF OMITTED] T7032.002
    
    [GRAPHIC] [TIFF OMITTED] T7032.003
    
    [GRAPHIC] [TIFF OMITTED] T7032.004
    
    [GRAPHIC] [TIFF OMITTED] T7032.005
    
    [GRAPHIC] [TIFF OMITTED] T7032.006
    
    [GRAPHIC] [TIFF OMITTED] T7032.007
    
    [GRAPHIC] [TIFF OMITTED] T7032.008
    
    [GRAPHIC] [TIFF OMITTED] T7032.009
    
    [GRAPHIC] [TIFF OMITTED] T7032.010
    
    [GRAPHIC] [TIFF OMITTED] T7032.011
    
    [GRAPHIC] [TIFF OMITTED] T7032.012
    
    [GRAPHIC] [TIFF OMITTED] T7032.013
    
    [GRAPHIC] [TIFF OMITTED] T7032.014
    
    [GRAPHIC] [TIFF OMITTED] T7032.015
    
    [GRAPHIC] [TIFF OMITTED] T7032.016
    
    [GRAPHIC] [TIFF OMITTED] T7032.017
    
    [GRAPHIC] [TIFF OMITTED] T7032.018
    
    [GRAPHIC] [TIFF OMITTED] T7032.019
    
    [GRAPHIC] [TIFF OMITTED] T7032.020
    
    [GRAPHIC] [TIFF OMITTED] T7032.021
    
    [GRAPHIC] [TIFF OMITTED] T7032.022
    
    [GRAPHIC] [TIFF OMITTED] T7032.023
    
    [GRAPHIC] [TIFF OMITTED] T7032.024
    
    [GRAPHIC] [TIFF OMITTED] T7032.025
    
    [GRAPHIC] [TIFF OMITTED] T7032.026
    
    [GRAPHIC] [TIFF OMITTED] T7032.027
    
    [GRAPHIC] [TIFF OMITTED] T7032.028
    
    [GRAPHIC] [TIFF OMITTED] T7032.029
    
    [GRAPHIC] [TIFF OMITTED] T7032.030
    
    [GRAPHIC] [TIFF OMITTED] T7032.031
    
    [GRAPHIC] [TIFF OMITTED] T7032.032
    
    [GRAPHIC] [TIFF OMITTED] T7032.033
    
    [GRAPHIC] [TIFF OMITTED] T7032.034
    
    [GRAPHIC] [TIFF OMITTED] T7032.035
    
    [GRAPHIC] [TIFF OMITTED] T7032.036
    
    [GRAPHIC] [TIFF OMITTED] T7032.037
    
    [GRAPHIC] [TIFF OMITTED] T7032.038
    
    [GRAPHIC] [TIFF OMITTED] T7032.039
    
    [GRAPHIC] [TIFF OMITTED] T7032.040
    
    [GRAPHIC] [TIFF OMITTED] T7032.041
    
    [GRAPHIC] [TIFF OMITTED] T7032.042
    
    [GRAPHIC] [TIFF OMITTED] T7032.043
    
    [GRAPHIC] [TIFF OMITTED] T7032.044
    
    [GRAPHIC] [TIFF OMITTED] T7032.045
    
    [GRAPHIC] [TIFF OMITTED] T7032.046
    
    [GRAPHIC] [TIFF OMITTED] T7032.047
    
    [GRAPHIC] [TIFF OMITTED] T7032.048
    
    [GRAPHIC] [TIFF OMITTED] T7032.049
    
    [GRAPHIC] [TIFF OMITTED] T7032.050
    
    [GRAPHIC] [TIFF OMITTED] T7032.051
    
    [GRAPHIC] [TIFF OMITTED] T7032.052
    
    [GRAPHIC] [TIFF OMITTED] T7032.053
    
    [GRAPHIC] [TIFF OMITTED] T7032.054
    
    [GRAPHIC] [TIFF OMITTED] T7032.055
    
    [GRAPHIC] [TIFF OMITTED] T7032.056
    
    [GRAPHIC] [TIFF OMITTED] T7032.057
    
    [GRAPHIC] [TIFF OMITTED] T7032.058
    
    [GRAPHIC] [TIFF OMITTED] T7032.059
    
    [GRAPHIC] [TIFF OMITTED] T7032.060
    
    [GRAPHIC] [TIFF OMITTED] T7032.061
    
    [GRAPHIC] [TIFF OMITTED] T7032.062
    
    [GRAPHIC] [TIFF OMITTED] T7032.063
    
    [GRAPHIC] [TIFF OMITTED] T7032.064
    
    [GRAPHIC] [TIFF OMITTED] T7032.065
    
    [GRAPHIC] [TIFF OMITTED] T7032.066
    
    [GRAPHIC] [TIFF OMITTED] T7032.067
    
    [GRAPHIC] [TIFF OMITTED] T7032.068
    
    [GRAPHIC] [TIFF OMITTED] T7032.069
    
    [GRAPHIC] [TIFF OMITTED] T7032.070
    
    [GRAPHIC] [TIFF OMITTED] T7032.071
    
    [GRAPHIC] [TIFF OMITTED] T7032.072
    
    [GRAPHIC] [TIFF OMITTED] T7032.073
    
    [GRAPHIC] [TIFF OMITTED] T7032.074
    
    [GRAPHIC] [TIFF OMITTED] T7032.075
    
    [GRAPHIC] [TIFF OMITTED] T7032.076
    
    [GRAPHIC] [TIFF OMITTED] T7032.077
    
    [GRAPHIC] [TIFF OMITTED] T7032.078
    
    [GRAPHIC] [TIFF OMITTED] T7032.079
    
    [GRAPHIC] [TIFF OMITTED] T7032.080
    
    [GRAPHIC] [TIFF OMITTED] T7032.081
    
    [GRAPHIC] [TIFF OMITTED] T7032.082
    
    [GRAPHIC] [TIFF OMITTED] T7032.083
    
    [GRAPHIC] [TIFF OMITTED] T7032.084
    
    [GRAPHIC] [TIFF OMITTED] T7032.085
    
    [GRAPHIC] [TIFF OMITTED] T7032.086
    
    [GRAPHIC] [TIFF OMITTED] T7032.087
    
    [GRAPHIC] [TIFF OMITTED] T7032.088
    
    [GRAPHIC] [TIFF OMITTED] T7032.089
    
    [GRAPHIC] [TIFF OMITTED] T7032.090
    
    [GRAPHIC] [TIFF OMITTED] T7032.091
    
    [GRAPHIC] [TIFF OMITTED] T7032.092
    
    [GRAPHIC] [TIFF OMITTED] T7032.093
    
    [GRAPHIC] [TIFF OMITTED] T7032.094
    
    [GRAPHIC] [TIFF OMITTED] T7032.095
    
    [GRAPHIC] [TIFF OMITTED] T7032.096
    
    [GRAPHIC] [TIFF OMITTED] T7032.097
    
    [GRAPHIC] [TIFF OMITTED] T7032.098
    
    [GRAPHIC] [TIFF OMITTED] T7032.099
    
    [GRAPHIC] [TIFF OMITTED] T7032.100
    
    [GRAPHIC] [TIFF OMITTED] T7032.101
    
    [GRAPHIC] [TIFF OMITTED] T7032.102
    
    [GRAPHIC] [TIFF OMITTED] T7032.103
    
    [GRAPHIC] [TIFF OMITTED] T7032.104
    
    [GRAPHIC] [TIFF OMITTED] T7032.105
    
    [GRAPHIC] [TIFF OMITTED] T7032.106
    
    [GRAPHIC] [TIFF OMITTED] T7032.107
    
    [GRAPHIC] [TIFF OMITTED] T7032.108
    
    [GRAPHIC] [TIFF OMITTED] T7032.109
    
    [GRAPHIC] [TIFF OMITTED] T7032.110
    
    [GRAPHIC] [TIFF OMITTED] T7032.111
    
    [GRAPHIC] [TIFF OMITTED] T7032.112
    
    [GRAPHIC] [TIFF OMITTED] T7032.113
    
    [GRAPHIC] [TIFF OMITTED] T7032.114
    
    [GRAPHIC] [TIFF OMITTED] T7032.115
    
    [GRAPHIC] [TIFF OMITTED] T7032.116
    
    [GRAPHIC] [TIFF OMITTED] T7032.117
    
    [GRAPHIC] [TIFF OMITTED] T7032.118
    
    [GRAPHIC] [TIFF OMITTED] T7032.119
    
    [GRAPHIC] [TIFF OMITTED] T7032.120
    
    [GRAPHIC] [TIFF OMITTED] T7032.121
    
    [GRAPHIC] [TIFF OMITTED] T7032.122
    
    [GRAPHIC] [TIFF OMITTED] T7032.123
    
    [GRAPHIC] [TIFF OMITTED] T7032.124
    
    [GRAPHIC] [TIFF OMITTED] T7032.125
    
    [GRAPHIC] [TIFF OMITTED] T7032.126
    
                                 <all>

</pre></body></html>
